<html>
<title> - LEGISLATIVE HEARING ON H.R. 2295, TO AMEND THE MINERAL LEASING ACT TO REQUIRE THE SECRETARY OF THE INTERIOR TO IDENTIFY AND DESIGNATE NATIONAL ENERGY SECURITY CORRIDORS FOR THE CONSTRUCTION OF NATURAL GAS PIPELINES ON FEDERAL LAND, AND FOR OTHER PURPOSES, ``NATIONAL ENERGY SECURITY CORRIDORS ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       H.R. 2295, ``NATIONAL ENERGY 
                         SECURITY CORRIDORS ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 20, 2015

                               __________

                            Serial No. 114-8

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              ___________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-773 PDF                  WASHINGTON : 2015                       
      
                  
                     
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  
                   
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Vacancy

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
John Fleming, LA                     Matt Cartwright, PA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Cynthia M. Lummis, WY                Ruben Gallego, AZ
Dan Benishek, MI                     Lois Capps, CA
Jeff Duncan, SC                      Jared Polis, CO
Paul A. Gosar, AZ                    Vacancy
Raul R. Labrador, ID                 Vacancy
Paul Cook, CA                        Vacancy
Garret Graves, LA                    Vacancy
Ryan K. Zinke, MT                    Vacancy
Jody B. Hice, GA                     Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Cresent Hardy, NV
Rob Bishop, UT, ex officio
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 20, 2015..........................     1

Statement of Members:
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     6
    MacArthur, Hon. Thomas, a Representative in Congress from the 
      State of New Jersey........................................     7
        Prepared statement of....................................     8

Statement of Witnesses:
    Buppert, Gregory, Senior Attorney, Southern Environmental Law 
      Center, Charlottesville, Virginia..........................    32
        Prepared statement of....................................    33
    McGarvey, Sean, President, North America's Building Trades 
      Unions, Washington, DC.....................................    28
        Prepared statement of....................................    29
    Moore, Jim, Vice President of Commercial Operations, Williams 
      Gas Pipelines, Houston, Texas..............................    18
        Prepared statement of....................................    20
        Questions submitted for the record.......................    21
    Parker, Linwood, Mayor, Town of Four Oaks, North Carolina....    16
        Prepared statement of....................................    17
    Spisak, Timothy, Senior Advisor for Minerals and Realty 
      Management, Bureau of Land Management, U.S. Department of 
      the Interior, Washington, DC...............................    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    15

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    48
    Richmond, Hon. Cedric L., a Representative in Congress from 
      the State of Louisiana, May 20, 2015 Letter in support of 
      H.R. 2295..................................................    47
                                     


 
 LEGISLATIVE HEARING ON H.R. 2295, TO AMEND THE MINERAL LEASING ACT TO 
    REQUIRE THE SECRETARY OF THE INTERIOR TO IDENTIFY AND DESIGNATE 
NATIONAL ENERGY SECURITY CORRIDORS FOR THE CONSTRUCTION OF NATURAL GAS 
 PIPELINES ON FEDERAL LAND, AND FOR OTHER PURPOSES, ``NATIONAL ENERGY 
                        SECURITY CORRIDORS ACT''

                              ----------                              


                        Wednesday, May 20, 2015

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Thompson, Benishek, 
Gosar, Labrador, Cook, Graves, Hice, Mooney, Hardy; Lowenthal, 
Costa, and Cartwright.
    Also present: Representatives MacArthur and Rouzer.
    Mr. Lamborn. The Subcommittee on Energy and Mineral 
Resources will come to order. The subcommittee is meeting today 
to hear testimony on H.R. 2295, introduced by Representative 
MacArthur, the National Energy Security Corridors Act.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman and the Ranking Member 
and the Vice Chairman and a designee of the Ranking Member. 
This will allow us to hear from our witnesses sooner, and help 
Members keep to their schedules.
    I also ask unanimous consent that the gentleman from New 
Jersey, Mr. MacArthur, and the gentleman from North Carolina, 
Mr. Rouzer, be allowed to sit on the dais and participate in 
today's hearing.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    I also ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee clerk by 5:00 p.m. today.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered. I now 
recognize myself for my opening statement.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. This morning's hearing is on H.R. 2295, the 
National Energy Security Corridors Act, introduced by 
Representative Tom MacArthur and Representative Cedric 
Richmond, legislation that would facilitate natural gas 
pipeline rights-of-way on Federal lands.
    If we are going to have an open and honest discussion about 
the energy needs of this country, a necessary part of that 
dialog must be dedicated to how that energy gets from point A 
to point B. If it was only just that simple.
    The truth of the matter is that our Nation's energy 
infrastructure needs are facing more challenges by the day. We 
cannot get our domestic resources to American families and 
businesses that rely upon them for daily use. Hydro, solar, 
wind, coal, natural gas, nuclear, and crude are all facing an 
uphill battle when it comes to getting these important energy 
resources to market, especially when you have to cross Federal 
lands to get there.
    But it doesn't have to be that way. Our Nation's energy 
landscape has completely changed over a relatively short period 
of time, and our energy infrastructure is still catching up. 
For instance, in 2007, the Marcellus Shale was producing just 
over 1 billion cubic feet per day of natural gas. This April, 
Marcellus averaged 16.7 billion cubic feet per day, and 
accounts for 18 percent of our Nation's natural gas supply.
    We should be proud of the fact that the United States is 
the global energy leader. U.S. oil and gas production has 
surpassed Russia and Saudi Arabia. Yet we still see over 25 
states in January of this year where families are facing 
residential natural gas prices that are higher than the 
national average.
    [Slide]
    Mr. Lamborn. As you can see displayed on the screens, most 
of these states are on the East Coast. And you will see the red 
states on the U.S. map there, on both screens.
    Massachusetts is 54 percent above the national average. New 
York is 11 percent above. Even right here, in the DC Metro 
area, we see Virginia, Maryland, and the District of Columbia 
in the double digits.
    Pennsylvania is mere hours away from this hearing room, and 
is producing over 16 billion cubic feet of natural gas per day. 
Doesn't it make sense that this energy produced by the American 
people should be able to reach these East Coast markets?
    One of the biggest obstacles preventing the full benefits 
of our Nation's shale gas revolution from reaching these areas 
is Federal lands. While all other agencies under the purview of 
the Secretary of the Interior are able to negotiate rights-of-
way so that natural gas pipelines can cross Federal lands, the 
Mineral Leasing Act exempts national park system lands from 
having this authority.
    To put it simply: every single time a pipeline needs to 
cross a parcel of land managed by the National Park Service, a 
company needs to get congressional approval. Since the late 
1980s, there have been five bills to grant this approval. It 
should not take an Act of Congress to get this done.
    Representative MacArthur's legislation demonstrates a 
willingness to work across the aisle and formulate common-
sense, bipartisan solutions that will help connect areas where 
the shale gas revolution is charging ahead to areas where it 
can be utilized. This bill provides the Secretary of the 
Interior with the authority to permit right-of-way for natural 
gas pipelines only on all Federal lands. The bill also takes a 
creative approach in providing the Secretary additional 
authority to work with her counterparts at the Federal, state, 
and local level to plan for the future and find areas that make 
the most sense for natural gas pipeline crossings, and to 
designate those areas as National Energy Security Corridors.
    The issue at hand is very simple. Federal lands are 
entrusted to the Federal Government for a reason: to make sure 
those Federal lands are being managed in the best interests of 
the American people. The longstanding position to just say 
``no,'' or ``go ask Congress,'' has never been a workable 
solution for all parties involved. We cannot stand idly by as 
entire regions of our Nation are held back from our vast 
domestic and affordable natural gas supply. There has to be a 
way for responsible land management and energy security to 
coexist. I think Mr. MacArthur's bill puts us on that path.
    The United States does not derive energy security from 
production alone. It also comes from harnessing these energy 
resources and using them to help American families and American 
businesses thrive on our shores. As more and more Americans 
rely on domestic natural gas for electricity generation, heat, 
and manufacturing, we need to find ways to help that supply get 
to where it needs to go. I hope this is one of the areas where 
we can work together across the aisle to promote economic 
prosperity and grow energy security in our Nation.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    This morning's hearing is on H.R. 2295, the ``National Energy 
Security Corridors Act'' introduced by Rep. Tom MacArthur (R-NJ) and 
Rep. Cedric Richmond (D-LA)--legislation that would facilitate natural 
gas pipeline rights-of-way on Federal lands.
    If we are going to have an open and honest discussion about the 
energy needs of this country--a necessary part of that dialog must be 
dedicated to how that energy gets from point A to point B. If only it 
was just that simple. The truth of the matter is that our Nation's 
energy infrastructure needs are facing more challenges by the day. We 
cannot get our domestic resources to American families and businesses 
that rely upon them for daily use. Hydro, solar, wind, coal, natural 
gas, nuclear, and crude--all are facing an uphill battle when it comes 
to getting these important energy resources to market--especially when 
you have to cross Federal lands to get there. But it doesn't need to be 
that way.
    Our Nation's energy landscape has completely changed over a 
relatively short period of time--and our energy infrastructure is still 
catching up. For instance, in 2007, the Marcellus Shale was producing 
just over 1 billion cubic feet per day of natural gas. This April, 
Marcellus averaged 16.7 billion cubic feet per day and accounts for 18 
percent of our Nation's natural gas supply. We should be proud of the 
fact that the United States is THE global energy leader. U.S. oil and 
gas production has surpassed Russia and Saudi Arabia. Yet, we still see 
over 25 states in January of this year where families are facing 
residential natural gas prices that are higher than the national 
average. As you can see displayed on the screens, most of these states 
are on the East Coast. Massachusetts is 54 percent above the national 
average. New York is 11 percent above. Even right here in the DC Metro 
area--we see Virginia, Maryland, and the District of Columbia in the 
double digits.
    Pennsylvania is mere hours away from this hearing room--and 
producing over 16 billion cubic feet of natural gas per day. Doesn't it 
make sense that this energy produced by the American people should be 
able to reach these East Coast markets?
    One of the biggest obstacles preventing the full benefits of our 
Nation's shale gas revolution from reaching these areas is Federal 
lands. While all other agencies under the purview of the Secretary of 
the Interior are able to negotiate rights-of-way so that natural gas 
pipelines can cross Federal lands, the Mineral Leasing Act exempts 
National Park System lands from having this authority.
    To put it simply: every single time a pipeline needs to cross a 
parcel of land managed by the National Park Service, a company needs to 
get congressional approval. Since the late 1980s, there have been five 
bills to grant this approval. It should not take an Act of Congress to 
get this done.
    Rep. MacArthur's legislation demonstrates a willingness to work 
across the aisle and formulate common-sense, bipartisan solutions that 
will help connect areas where the shale gas revolution is charging 
ahead to areas where it can be utilized.
    This bill provides the Secretary of the Interior with the authority 
to permit right-of-way for natural gas pipelines only on all Federal 
lands.
    The bill also takes a creative approach in providing the Secretary 
additional authority to work with her counterparts at the Federal, 
state and local level to plan for the future and find areas that make 
the most sense for natural gas pipeline crossings and designate those 
areas as National Energy Security Corridors.
    The issue at hand is very simple. Federal lands are entrusted to 
the Federal Government for a reason: to make sure those Federal lands 
are being managed in the best interests of the American people. The 
longstanding position to just say ``No'' or ``Go ask Congress'' has 
never been a workable solution for all parties involved. We cannot 
stand idly by as entire regions of our Nation are held back from our 
vast domestic and affordable natural gas supply. There has to be a way 
for responsible land management and energy security to co-exist. I 
think Mr. MacArthur's bill puts us on that path.
    The United States does not derive energy security from production 
alone. It also comes from harnessing these energy resources and using 
them to help American families and American businesses thrive on our 
shores. As more and more Americans rely on domestic natural gas for 
electricity generation, heat, and manufacturing, we need to find ways 
to help that supply get where it needs to go. I hope this is one of the 
areas where we can work together across the aisle to promote economic 
prosperity and grow energy security in our Nation.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member for his 
opening statement.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you very much, Mr. Chairman. And thank 
you to all the witnesses for being here today. I would like to 
start out by saying that I think we could have a productive, 
bipartisan conversation about building natural gas pipelines 
when they are thoughtfully sited.
    Pipeline infrastructure is necessary to prevent wasteful 
venting and flaring at oil wells, to allow power plants to 
receive the steady fuel supply that they need to switch away 
from coal to natural gas, and to keep consumers from facing 
painful price spikes during cold weather. When planned 
properly, I also support the designation of infrastructure 
corridors. It simply makes sense to identify areas that are 
less environmentally sensitive and have fewer land use 
conflicts, and to try to concentrate new pipelines or 
transmission lines in those areas.
    Unfortunately, the bill we are discussing today still needs 
more work in order to accomplish these positive goals. We need 
a bill that speeds the development of well-planned new 
pipelines while paying attention to landowner and community 
concerns and protecting sensitive areas.
    The bill, as written, overturns the longstanding 
requirement for congressional approval of natural gas pipelines 
through national parks. Congress specifically required this 
extra level of attention because our parks deserve a higher 
standard of care. We have repeatedly passed laws to authorize 
pipelines through national parks, and I believe that Congress 
should retain that responsibility.
    This bill goes further than that with regards to national 
parks. It would have the Secretary employ the principle of 
multiple use for routing pipeline corridors through parks. For 
those who are less familiar with the concept, multiple use is 
how the Bureau of Land Management and the U.S. Forest Service 
operate. It means managing the land to balance a variety of 
different uses, from recreation to energy production to timber 
harvesting to grazing to conservation.
    But that is not the mission of the National Park Service. 
Its mission is to conserve and protect particularly special 
natural and cultural resources for the enjoyment of future 
generations. This bill would effectively amend that mission and 
provide for natural gas pipeline corridors. I believe that is a 
wholly inappropriate use of our national parks, and it is not 
necessary in order to meet our needs to upgrade and expand our 
natural gas pipeline system.
    The bill, as written, would also establish corridors with 
virtually no public input. Utilities and pipeline companies are 
given the opportunity to suggest corridors that limit community 
impacts to the extent practical. And state, local, and tribal 
governments get to weigh in, although not about impacts to 
their states or towns, but only on what routes are the most 
cost-effective and commercially viable. When combined with the 
waiver of the National Environmental Policy Act in this bill, 
the public is effectively shut out from having a say in these 
corridors. This could result in more local opposition to new 
pipelines, and would be counterproductive to building the 
infrastructure that we need. And I repeat, we need to build 
infrastructure.
    Another concern is the mandate in the bill that the 
Secretary designate no less than 10 corridors in the eastern 
half of the United States. It is an arbitrary minimum, and 
ignores the findings of a report from the Department of Energy 
issued less than 4 years ago, and written to fulfill Section 
368(b) of the Energy Policy Act of 2005. That report concluded 
that energy corridors on Federal land in the East are 
unnecessary and unhelpful. It states, ``Fragmented patterns of 
Federal land jurisdiction in the East, coupled with limited 
opportunities for utility scale development on many classes of 
Federal land, make the designation of Federal energy transport 
corridors an inefficient solution to resolving energy 
transmission siting challenges.''
    The Department of Energy's recently released Quadrennial 
Energy Review, which has received praise from both sides of the 
aisle, offers some practical suggestions on how to improve how 
we site and permit pipelines. One of the recommendations, 
prioritizing early and meaningful public engagement, is in 
contrast to the approach taken in this bill.
    The rest of DoE's recommendations I believe also deserve 
careful consideration. But careful consideration, 
unfortunately, is not what this particular bill is about. It is 
about a rush to designate unnecessary corridors with almost 
zero public input. I hope we can work together to craft 
legislation that can help to site pipelines on public lands in 
a more thoughtful way. Thank you, and I yield back.
    [The prepared statement of Mr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you very much, Mr. Chairman. And thank you to the witnesses 
for being here today.
    I would like to start out by saying that I think we can have 
productive bipartisan conversation about building natural gas pipelines 
when they are thoughtfully sited. Pipeline infrastructure is necessary 
to prevent wasteful venting and flaring at oil wells, to allow power 
plants to receive the steady fuel supply they need to switch away from 
coal to natural gas, and to keep consumers from facing painful price 
spikes during cold weather.
    And when planned properly, I also support the designation of 
infrastructure corridors. It simply makes sense to identify areas that 
are less environmentally sensitive and have fewer land-use conflicts, 
and try to concentrate new pipelines or transmission lines in those 
areas.
    But the bill that we are discussing today needs more work in order 
to accomplish these positive goals. We need a bill that speeds the 
development of well-planned new pipelines while paying attention to 
landowner and community concerns and protecting sensitive areas.
    First, this bill as written overturns the longstanding requirement 
for congressional approval of natural gas pipelines through national 
parks. Congress specifically required this extra level of attention 
because our parks deserve a higher standard of care. We have repeatedly 
passed laws to authorize pipelines through national parks, and I 
believe that Congress should retain that responsibility.
    This bill goes further than that with regard to national parks, 
however. It would have the Secretary employ the principle of multiple-
use for routing pipeline corridors through parks. For those of you who 
are less familiar with the concept, multiple-use is how the Bureau of 
Land Management and U.S. Forest Service operate. It means managing the 
land to balance a variety of different uses, from recreation to energy 
production to timber harvesting to grazing to conservation.
    But that is not the mission of the National Park Service. Its 
mission is to conserve and protect particularly special natural and 
cultural resources for the enjoyment of future generations. This bill 
would effectively amend that mission, and provide for natural gas 
pipeline corridors. That is a wholly inappropriate use of our national 
parks, and not necessary in order to meet our needs to upgrade and 
expand our natural gas pipeline system.
    This bill as written would also establish corridors with virtually 
no public input. Utilities and pipeline companies are given the 
opportunity to suggest corridors that limit community impacts to the 
extent practicable. And state, local, and tribal governments get to 
weigh in, although not about impacts to their states or towns, but only 
on what routes are the most cost-effective and commercially viable. 
When combined with the waiver of the National Environmental Policy Act 
in this bill, the public is effectively shut out from having a say in 
these corridors. This could result in more local opposition to new 
pipelines, and would be counterproductive to building the 
infrastructure that we need.
    Another concern is the mandate in the bill that the Secretary 
designate no less than 10 corridors in the eastern half of the United 
States. It's an arbitrary minimum, and ignores the findings of a report 
from the Department of Energy, issued less than 4 years ago, and 
written to fulfill Section 368(b) of the Energy Policy Act of 2005.
    That report concluded that energy corridors on Federal land in the 
East are unnecessary and unhelpful. It states, ``Fragmented patterns of 
Federal land jurisdiction in the East, coupled with limited 
opportunities for utility-scale development on many classes of Federal 
land, make the designation of Federal energy transport corridors an 
inefficient solution to resolving energy transmission siting 
challenges.''
    The Department of Energy's recently released Quadrennial Energy 
Review, which has received praise from both sides of the aisle, offers 
some practical suggestions for how to improve how we site and permit 
pipelines. One of the recommendations--prioritizing early and 
meaningful public engagement--is in contrast to the approach taken by 
this bill. The rest of DOE's recommendations I believe also deserve 
careful consideration.
    But careful consideration, unfortunately, is not what this 
particular bill is about. It's about a rush to designate unnecessary 
corridors with almost zero public input, and I hope we can work 
together to craft legislation that can help site pipelines on public 
lands in a more thoughtful way.

    Thank you, and I yield back.

                                 ______
                                 

    Mr. Lamborn. All right, thank you.
    I now recognize the gentleman from New Jersey, Mr. 
MacArthur, for a brief statement on the bill.

  STATEMENT OF THE HON. THOMAS MacARTHUR, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. MacArthur. Thank you, Mr. Chairman and Ranking Member 
Lowenthal. I appreciate this speedy hearing on the National 
Energy Security Corridors Act. If all of Congress moved this 
fast, we would be getting somewhere, I think.
    And I want to thank Representative Richmond. He couldn't be 
here today, but has supported the bill and made it truly a 
bipartisan effort. Without objection, I would like to submit my 
written statement, Representative Richmond's written statement, 
and supporting statements from the America's Natural Gas 
Alliance and the Interstate Natural Gas Association of America.
    Mr. Lamborn. If there is no objection, so ordered.
    Mr. MacArthur. Thank you. This bill is about enhancing 
natural gas distribution, making it more reliable, resilient, 
secure, and promoting economic growth.
    Let me frame the issue. America is committed to energy 
independence, and we should be. The President supports it, 
Congress supports it, and more importantly, the people of the 
United States support it. The Energy Policy Act of 2005 
required multiple agencies to establish energy corridors across 
Federal lands. Ten years later, we have exactly zero of those 
corridors in the eastern United States. Why? Because the 
National Park Service lacks the authority to negotiate natural 
gas pipelines. It requires an Act of Congress for every 
individual project.
    Let me give one example. The Appalachian Trail is a major 
huge national park, 2,200 miles long, comprised of 14 states; 
and to get a pipeline across it requires an Act of Congress. 
The Department of the Interior can't issue those permits. There 
is no sense in using a legislative body to manage and oversee 
individual site-specific applications. It is bad for consumers, 
it is bad for the producers in the West.
    [Slide]
    Mr. MacArthur. I would point to the map that is up on the 
board. It is similar to the one the Chairman referenced 
earlier. In Linden, New Jersey, near me, we are paying $22.35 
for 1 million BTU's--$22.35. Go to Wichita, Kansas, it is 
$2.64. It is nearly 10 times more in the eastern United States. 
That isn't good for anybody.
    This bill is a simple effort to try to solve this by 
requiring the Department of the Interior to do what they should 
have done years ago, and that is designate, at a minimum, 10 
energy corridors across Federal lands within 2 years of 
enactment of this legislation. This is for natural gas only. It 
would also streamline the process for granting rights-of-way 
across those corridors.
    This is not a new concept. The Mineral Leasing Act 
authorized the Secretary of the Interior to grant rights-of-way 
across Federal lands, except for the national parks. The 
National Park Service already grants rights-of-way across its 
lands for electric transmission lines, for telephone lines, for 
water lines.
    So why was natural gas left out? Maybe because the Mineral 
Leasing Act was passed in 1911, and I don't think we were 
thinking about natural gas pipelines over 100 years ago. It is 
high time for us to update our legislation to allow for natural 
gas pipelines.
    And I want to point out that every individual project still 
has to go through permitting that is subject to the National 
Environmental Policy Act, NEPA.
    The bill enjoys broad support for good reason. It will 
further energy independence and, I believe, national security 
along with it. It will create jobs, both construction and 
maintenance jobs. That is why the operating engineers in the 
building trades union support it. It is environmentally 
sensitive. It is natural gas only. It is planned, intentional, 
and it is a cohesive approach. It ends this willy nilly 
haphazard approach of approving one pipeline at a time through 
an Act of Congress. In my mind this is a common-sense update to 
a 100-year-old law. It brings our energy policy into the 21st 
century. And I urge, support, and yield back.
    I encourage my colleagues who might see issues with it here 
and there, don't let the perfect become the enemy of the good. 
This is good legislation, and it will certainly help people in 
the eastern United States.
    I yield back, thank you.
    [The prepared statement of Mr. MacArthur follows:]
 Prepared Statement of the Hon. Thomas MacArthur, a Representative in 
                 Congress from the State of New Jersey
    Thank you Chairman Lamborn, and Ranking Member Lowenthal, for 
bringing the National Energy Security Corridors Act up for a hearing 
today and allowing me the opportunity to discuss this bill with the 
subcommittee. I'd also like to thank Rep. Richmond for his support and 
for helping us create a great bipartisan bill. My legislation seeks to 
enhance our Nation's natural gas distribution network for reliability, 
resiliency, national security, and economic growth.
    I'd like to include letters of support from America's Natural Gas 
Alliance, Interstate Natural Gas Association of America, and a 
statement from my original co-sponsor Rep. Richmond for the record.
    Specifically, it's going to update the Energy Policy Act of 2005, 
which required multiple agencies to collaborate to establish energy 
right-of-way corridors on Federal lands throughout the United States. 
Unfortunately, a full 10 years later, no corridors have been 
established in the eastern United States. We can do better, and if we 
are to become more energy independent, we should do better. That's why 
this bill will require the Department of Interior to designate 10 of 
these corridors within 2 years of the bill's enactment, and will allow 
the Secretary of the Interior the authority to establish National 
Energy Security Corridors on Federal lands for natural gas pipelines. 
On top of that it will establish a streamlined approach to granting 
right-of-way across such corridors.
    The President himself described the energy corridors program in the 
Energy Policy Act of 2005 as, ``An important avenue to improve the 
processes is the designation of energy right-of-way corridors on 
Federal lands,'' and, ``Designated energy corridors provide an 
opportunity to co-locate projects and share environmental and cultural 
resource impact data to reduce overall impact.'' We agree with the 
President and are looking to empower the Department of Interior to 
manage its land the same way it does everywhere else.
    Currently, the Mineral Leasing Act permits the Secretary of 
Interior to grant right-of-ways across all Federal lands except those 
in the National Park System. The National Park System already has 
authority to grant right-of-ways over NPS land for electrical 
transmission and distribution lines, telephone lines and water lines, 
but makes no mention of natural gas pipelines. Perhaps that's because 
in 1911, when this legislation was passed, we didn't have a lot of 
natural gas pipelines. It's 2015, high time for an update.
    NPS says they lack the authority to negotiate for natural gas 
pipelines, meaning these approvals require project specific 
authorization language from Congress. It does not make sense to put a 
legislative body in charge of regulating and permitting site specific 
projects, when agencies like the Department of Interior handle this job 
for nearly every other similar project.
    For example, consider the Appalachian Trail where a project is 
stalled currently. The trail stretches approximately 2,200 miles 
through 14 states as a national park. The Trail's length and presence 
in multiple states ensures that all natural gas pipelines crossing it 
have to receive a project specific authorization from the Congress, 
rather than the standard permitting procedure of working through the 
Department of Interior. That requirement brings these projects to a 
standstill. This oversight in designing the process has caused natural 
gas users in the Northeast, separated by the Appalachian Trail from 
producing states in the West, to pay significantly more for gas than 
the rest of the country. During these difficult times of economic 
recovery, all of our constituents deserve to benefit from lower energy 
prices.
    Our bipartisan legislation would be specific to natural gas and no 
other form of pipeline or energy. Nothing in this legislation would 
preclude the National Environmental Policy Act requirements for the 
building and siting of the pipelines that would be considered in these 
corridors. This legislation has broad support from a variety of 
stakeholders. It's a common-sense update to a 100-year-old law. Let's 
bring our energy policy into the 21st century.
    Workers should support this legislation because it provides jobs 
and income to communities, business owners should support this 
legislation because it will help minimize costs and disruptions in 
energy prices, and environmentalists should support this legislation 
because it forces the Department of Interior to take a comprehensive, 
long-term look at the siting of pipelines from coast to coast.

    I urge support for the National Energy Security Corridor Act, and 
yield back.

                                 ______
                                 

    Mr. Lamborn. Thank you. I would like to now introduce the 
witnesses.
    But before I begin, Mr. Rouzer would like to briefly 
introduce his constituent, who is testifying before us today.
    Mr. Rouzer. Thank you, Mr. Chairman. I appreciate that very 
much. I am balancing my time here with a roll call vote over in 
the House Agriculture Committee. So, after I introduce Mr. 
Linwood Parker, the Mayor of Four Oaks, I am going to have to 
run right out. Mr. Mayor, I am sorry I will not get an 
opportunity to listen to your testimony.
    I have known Mr. Parker since I was a toddler. He went to 
school with my mother and her two sisters. And they have 
probably a number of different stories that they would love to 
tell you, which I will not.
    [Laughter.]
    Mr. Rouzer. However, what I will state for the record is 
that the Mayor, the fine Mayor from Four Oaks, is a man of good 
common sense, and a great deal of humor, as well. And I commend 
him highly to the committee. I am sure he will have testimony 
worthy of this committee, and worthy of the issue. Thank you, 
Mr. Chairman.
    Mr. Lamborn. Thank you, Representative Rouzer. Fortunately, 
you don't have very far to go. You are on the same floor in 
this building.
    So, we also have testifying today Mr. Tim Spisak, Senior 
Advisor for Minerals and Realty Management of the Bureau of 
Land Management; Mr. Jim Moore, Vice President of Commercial 
Development for the Williams Companies; Mr. Sean McGarvey, 
President of North America's Building Trade Unions; and Mr. 
Gregory Buppert, Senior Attorney for the Southern Environmental 
Law Center.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light comes on. Your time 
will have expired when the red light comes on, and I would ask 
that you finish your statement at that time.
    I will also allow the entire panel to testify before 
questioning the witnesses.
    The Chair now recognizes Mr. Spisak to testify.

 STATEMENT OF TIMOTHY SPISAK, SENIOR ADVISOR FOR MINERALS AND 
 REALTY MANAGEMENT, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT 
                OF THE INTERIOR, WASHINGTON, DC

    Mr. Spisak. Chairman Lamborn, Ranking Member Lowenthal, and 
members of the subcommittee, thank you for the opportunity to 
present the views of the Department of the Interior on H.R. 
2295, the ``National Energy Security Corridors Act.'' My name 
is Tim Spisak, Senior Advisor for Conventional Energy with the 
Bureau of Land Management, and I am accompanied by Ray 
Sauvajot, Associate Director with the National Park Service.
    I want to thank the subcommittee for focusing on the 
important national issue of energy transition corridors. The 
Department shares the subcommittee's goals in providing the 
safe, timely, and efficient transmission of energy resources 
across Federal lands. We appreciate the subcommittee's efforts 
on the legislation, and would like to continue to work with you 
to find ways to further our common goals.
    The BLM administers public lands for a broad range of uses, 
and manages lands with some of the most advanced energy 
development in the world. Our contribution to the national 
energy portfolio provides an important economic benefit. In 
Fiscal Year 2014, onshore Federal oil and gas royalties 
exceeded $3 billion, approximately half of which were paid 
directly to the states in which the development occurred.
    We are coordinating closely with partners across the 
country to ensure that the development of energy resources 
occurs in the right places, and that those projects are managed 
safely and responsibly. The BLM places a special emphasis on 
transparency and public processes to incorporate the input and 
needs of the American people. The BLM's activities provide 
critical infrastructure, as well as energy for our Nation, 
reducing our reliance on oil imports, while protecting our 
public land and water resources.
    As part of this effort, we are working with other agencies 
in support of Executive Order 13604, to improve the performance 
of Federal permitting and review of infrastructure projects by 
increasing transparency and predictability.
    In 2009, under the Energy Policy Act of 2005, the 
Department designated approximately 5,000 miles of energy 
corridors, amending 92 land use plans in 11 western states. 
Since 2009, the BLM has participated in the approval of nine 
major pipeline expansion projects totaling nearly 2,000 miles 
of new oil and gas pipeline, with over 1,000 of those miles 
crossing Federal lands.
    In the next 18 months, the BLM is expected to complete 
review of three more major pipeline projects, totaling nearly 
1,000 additional miles, nearly half of which are on Federal 
lands. These are in addition to the thousands of miles of 
smaller oil and gas pipeline projects approved every year.
    While the Department supports the goals of H.R. 2295, we 
believe many of the activities authorized by the bill are 
already within the scope of existing authorities. We also feel 
that the bill's NEPA waiver would only complicate the 
deliberative process necessary for the appropriate 
consideration of specific authorization decisions. The BLM 
routinely designates energy corridors as part of a land use 
plan, or along with the environmental review for a major 
infrastructure project. These are typically addressed with an 
EIS-level analysis, which includes substantial agency, tribal, 
public, and industry input.
    The Department is committed to providing full environmental 
review and public involvement opportunities required by NEPA 
for proposals for the use of the Nation's public lands.
    The Department also questions the significant role given to 
it in designating corridors in the eastern United States under 
H.R. 2295. The Department manages very little multiple-use land 
in the East, where it has a significantly different role than 
it does in the western United States.
    Finally, as expressed in our written statement, the 
Department strongly opposes the bill's provisions that would 
authorize the Secretary to issue a right-of-way on national 
public service lands. The statement notes that the exclusion of 
national parks from the Mineral Leasing Act has not prevented 
the issuing of rights-of-way for pipelines through national 
park units. The Department has supported legislation 
authorizing rights-of-way for oil and gas pipelines on a park-
by-park basis, when it has been appropriate to do so.
    Mr. Chairman, the Department of the Interior has a proven 
record of facilitating responsible siting of oil and natural 
gas pipelines. We appreciate the subcommittee's interest in 
this important work, and look forward to working with you on 
these important issues. Thank you for the opportunity to 
testify.
    [The prepared statement of Mr. Spisak follows:]
Prepared Statement of Timothy Spisak, Senior Advisor, Energy, Minerals 
 and Realty Management, Bureau of Land Management, U.S. Department of 
                              the Interior
    Thank you for the opportunity to testify on behalf of the 
Department of the Interior (Department) on H.R. 2295. This bill 
requires the Secretary of the Interior to designate National Energy 
Security Corridors for the construction of natural gas pipelines on 
Federal lands, and provides for expedited review of natural gas 
pipeline authorizations. It also authorizes the Secretary to issue 
natural gas pipeline rights-of-way on National Park Service (NPS) 
lands.
    The Department shares and supports the subcommittee's goal to 
provide for the safe and efficient transmission of energy resources, 
including natural gas, across Federal lands by efficiently and 
effectively siting corridors and permitting pipeline projects in a 
timely manner. However, most of the authorizations of H.R. 2295 are 
already within the scope of existing Department authorities, and 
consistent with current priorities and activities. Additionally, the 
Department strongly opposes the bill's provisions that would authorize 
the Secretary to issue natural gas pipeline rights-of-way on NPS lands. 
The Department would like to continue to work with the committee to 
find ways to further our common goal to promote the responsible and 
efficient development and transmission of our Nation's energy resources 
from Federal lands.
                               background
    The Department of the Interior administers a wide range of lands 
and resources that includes wilderness areas, lands held in trust for 
Native Americans, our National Park System, our National Wildlife 
Refuge System, and our National System of Public Lands. The Bureau of 
Land Management (BLM) is responsible for protecting the resources and 
managing the uses of our Nation's public lands, located primarily in 12 
western states, including Alaska. The BLM administers more land--over 
245 million surface acres--than any other Federal agency. The BLM also 
manages approximately 700 million acres of onshore Federal mineral 
estate throughout the Nation.
    The BLM manages this vast portfolio on behalf of the American 
people under the dual framework of multiple use and sustained yield. 
This means the BLM administers public lands for a broad range of uses 
including renewable and conventional energy development, livestock 
grazing, timber production, hunting, fishing, recreation, and 
conservation. We manage lands with some of the most advanced energy 
development in the world and some of North America's most wild and 
sacred landscapes. This unique role often puts the BLM in the middle of 
some of the most challenging natural resource issues facing our 
country. The BLM places a special emphasis on transparency and public 
processes to incorporate the input and needs of the American people and 
of the communities in which we live and work.
    The BLM's activities provide critical infrastructure as well as 
energy for our Nation and reduce our reliance on oil imports, while 
protecting our public land and water resources. The BLM's contribution 
to the national energy portfolio provides an important economic 
benefit. The Department collects billions of dollars annually for the 
Federal Treasury through mineral lease rents and royalties for mineral 
extraction and other activities, and shares these revenues each year 
with states, tribes, counties, and other entities. In many states, 
energy production and other activities are a critical component of the 
local economy. For example, in Fiscal Year 2014, onshore Federal oil 
and gas royalties exceeded $3 billion, approximately half of which were 
paid directly to the states in which the development occurred. In the 
same period, tribal oil and gas royalties exceeded $1 billion with all 
of those revenues paid to the tribes and/or individual Indian owners of 
the land on which the development occurred.
    Secretary Jewell has made it clear that as we expand and diversify 
our energy portfolio, the development of conventional energy resources 
from BLM-managed lands will continue to play a critical role in meeting 
the Nation's energy needs and fueling our economy. The BLM is committed 
to promoting responsible domestic oil and gas production in a manner 
that will protect consumers, human health, and the environment. 
Facilitating the safe and efficient development of these resources is 
one of the BLM's many responsibilities and part of the Administration's 
broad energy strategy, outlined in the President's Blueprint for a 
Secure Energy Future. Environmentally responsible development of these 
resources will help protect consumers and reduce our Nation's reliance 
on oil, while also protecting our Federal lands and the environment. As 
part of this effort, the Department is working with various agencies in 
support of Executive Order 13604 to improve the performance of Federal 
permitting and review of infrastructure projects by increasing 
transparency and predictability of infrastructure permitting and 
reviews.
Energy Corridors on Federal Lands
    The Energy Policy Act of 2005 (EPAct; P.L. 109-58, Section 368(a)) 
directed the Secretaries of Agriculture, Commerce, Defense, Energy, and 
the Interior to designate corridors for oil, gas, and hydrogen 
pipelines and electricity transmission and distribution facilities on 
Federal lands in the 11 contiguous western states. Congress also 
directed the agencies to perform any environmental reviews that may be 
required to complete the designation of the corridors and incorporate 
the corridors into land use plans. In 2006, the U.S. Department of 
Energy, BLM, U.S. Forest Service (USFS), and U.S. Department of Defense 
initiated a Programmatic Environmental Impact Statement--Designation of 
Energy Corridors on Federal Land in the 11 western states. This was 
completed in 2008. On January 14, 2009, the Department of the Interior 
approved a record of decision (ROD) to designate approximately 5,000 
miles of corridors which included amendments to 92 land use plans in 11 
western states. The USFS issued a ROD on January 14, 2009, which 
amended 38 national forest land management plans and designated 
approximately 1,000 miles of corridors in 10 states.
    EPAct Section 368(b) requires the Secretaries, in consultation with 
the Federal Energy Regulatory Commission, affected utility industries, 
and other interested persons, to jointly identify energy corridors on 
Federal land in states other than the 11 western states identified 
under Section 368(a) of EPAct. On October 3, 2008, the Department of 
Energy, as lead agency, issued a Federal Register notice to determine 
public and stakeholder interest. There were relatively few responses 
from public, state and local governments, utilities, or other 
interested stakeholders. This absence of immediate public interest in 
new corridors on Federal land within these 39 states, combined with the 
relatively small amount of Federal land in these states (especially 
compared to the 11 western states), and the often single priority land 
use management purposes for these Federal lands (e.g., parks, wildlife 
refuges, and trails), resulted in the agencies' determination not to 
develop a proposed action to identify and designate Section 368(b) 
energy transportation corridors on Federal lands in the 39 states at 
that time.
    In addition to the energy corridor authorizations in Section 368 of 
EPAct, Executive Order 13604 and two Presidential Memoranda (May 17 and 
June 7, 2013) direct Federal agencies to improve energy corridors and 
expedite siting of infrastructure projects, including natural gas 
pipelines. The Department has been making considerable strides in 
meeting those requirements as captured in the June 2012 interagency 
plan on implementing Executive Order 13604 and the May 2014 interagency 
plan regarding the Presidential Memorandum on Modernizing 
Infrastructure Permitting. Furthermore, the BLM, USFS and the 
Department of Energy anticipate completion of a corridor study in 2015 
that will assess how efficiently and effectively existing corridors are 
being used. The BLM has a process in place to review those corridors 
and determine if additional corridors or corridor adjustments are 
needed.
Pipeline Authorizations
    The BLM is working hard to do its part to expand the Nation's 
pipeline infrastructure and increase the capacity to transport energy 
resources when and where it is needed. As authorized by the Mineral 
Leasing Act (MLA, Section 28), the BLM issues right-of-way (ROW) grants 
for oil and natural gas gathering, distribution, and transmission 
pipelines and related facilities. The BLM may grant MLA ROWs on any 
public land, or on land administered by two or more Federal agencies, 
except land in the National Park System or land held in trust for 
Indian tribes. A designated corridor is a preferred location for the 
placement of ROWs and the BLM actively encourages use of designated ROW 
corridors to streamline the authorization process. This minimizes the 
proliferation of separate ROWs and promotes sharing of ROWs to the 
greatest extent possible, given considerations of engineering and 
technological compatibility, national security, and land use planning. 
Use of existing corridors and sharing of existing ROWs for pipelines 
protects the quality of natural resources and prevents unnecessary 
environmental damage to lands and resources. The BLM continues to work 
to identify ways to improve the overall siting and permitting process, 
and the President's Fiscal Year 2016 Budget requests $5 million to 
develop an improved and updated assessment process for the development 
and siting of energy corridors and rights-of-way.
    Since designation of the west-wide energy corridors in 2009, the 
BLM has participated in the approval of nine major pipeline expansion 
projects totaling nearly 2,000 miles of new oil and gas pipeline with 
nearly 1,050 of those miles crossing Federal lands. In the next 18 
months, the BLM is expected to complete review and disposition of three 
more major pipeline projects totaling nearly 1,000 additional miles 
with nearly 450 of those miles across Federal lands. Work on these 
major oil and gas pipeline projects is in addition to the thousands of 
miles of smaller distribution pipeline projects that are approved every 
year to transport oil and gas from the production site to the larger 
gathering pipelines and the major transport pipeline facilities.
            h.r. 2295 ``national energy security corridors''
    H.R. 2295 amends the MLA to require the Secretary of the Interior 
to identify and designate National Energy Security Corridors for the 
construction of natural gas pipelines on Federal land. The bill 
requires the Secretary to designate at least 10 National Energy 
Security Corridors within 2 years in the eastern United States, and 
specifies that the designation of the corridors would not be considered 
``major Federal actions'' under the National Environmental Policy Act 
(NEPA) and thereby waived from NEPA review. Under the bill, the 
Secretary would be directed to establish procedures to expedite and 
approve applications for ROWs for natural gas pipelines across the 
newly designated corridors. It also provides for certain deadlines 
associated with the authorizations, including an approval time of not 
more than 1 year after the date of receipt of a ROW application, and 
for the Secretary to report to Congress when the deadlines are not met. 
Finally, the bill amends the MLA to provide for the authorization of 
natural gas pipelines across units of the National Park System.
Analysis
    While the Department supports the goal of the bill to provide for 
efficient transmission of important natural gas resources across 
Federal lands, it believes the legislation is unnecessary because many 
of the activities authorized by the bill are already within the scope 
of existing Department authorities. The Department opposes establishing 
a new system of corridors on top of those designated under Section 
368(a) of EPAct and opposes the requirement to designate at least 10 
new 368(b) corridors within 2 years in the eastern United States, which 
is too short a time frame to adequately coordinate with states, tribes, 
other Federal partners, and the public. The Department also questions 
the significant role given to the Department of the Interior in 
designating corridors in the eastern United States under H.R. 2295, 
where the Department manages very little multiple-use land and has a 
significantly different role than it does in the western United States.
    Furthermore, the Department opposes the bill's provisions declaring 
that energy corridor designation and incorporation into a land use plan 
shall not be treated as major Federal actions under NEPA and that 
approvals are required. This NEPA waiver is unnecessary and 
counterproductive, as it would only complicate the deliberative process 
necessary for the appropriate consideration of specific authorization 
decisions. Designating corridors on Federal land does not create a 
contiguous corridor; rather intervening parcels of state and private 
land complicate corridor designation and are important considerations 
in both Federal and state permitting processes. The BLM routinely 
designates energy corridors as part of a land use plan or concurrently 
with the environmental review for a major infrastructure project. These 
are typically addressed with Environmental Impact Statement level 
analysis, which includes substantial agency, tribal, public, and 
industry input. The Department does not support limiting public input 
through the environmental review process under NEPA; it is a critical 
tool for engaging the public and for analyzing and mitigating for 
impacts to adjacent private lands and state-managed resources. These 
open, public processes help the land managing agencies consider impacts 
on the surrounding communities and the environment, as well as identify 
unknown or unforeseen issues, which is invaluable to sound public land 
management and appropriate routing for these corridors. Moreover, it is 
unclear that restricting the level of NEPA analysis required would 
result in significant time savings since close coordination with 
cooperating partners and the public would be necessary whether within 
or outside of a formal NEPA process. Additionally, designation of 
corridors without an appropriate level of NEPA analysis would not 
provide any time savings as BLM would be required to complete an 
appropriate NEPA analysis for each individual project proposed within a 
given corridor, an analysis that would be expedited were the corridor 
designation subject to a NEPA review. The Department is committed to 
providing full environmental review and public involvement 
opportunities required by NEPA for proposals for the use of the 
Nation's public lands.
    Certain provisions of the bill also need clarification, including 
the bill's definition of Federal lands, and whether the designation of 
the new energy corridors is intended to be limited to natural gas 
transmission. The BLM authorizes multiple uses in its corridors to the 
extent practicable, in order to maximize operational efficiencies and 
minimize adverse environmental impacts and proliferation of separate 
ROW authorizations. The Department would prefer to have the flexibility 
for its corridors to accommodate a number of uses, such as electric 
transmission, fiber optics, and oil, gas and water pipelines. Certain 
deadlines of the bill are also a concern, such as its requirement to 
approve ROWs for pipeline projects within 1 year after receipt of an 
application. There are a number of reasons the BLM might not meet the 
1-year deadline, such as incomplete applications from a developer, and 
the need to conduct public outreach, tribal consultation, state and 
local government consultation and coordination, cultural resource 
surveys, or other analyses necessary to balance project approval with 
mitigation and protection of the natural and cultural resources of the 
public lands.
Pipelines in National Park Service Lands
    Finally, the Department strongly opposes the bill's provisions that 
would authorize the Secretary to issue a ROW on NPS lands--reversing 
the longstanding prohibition on allowing such pipelines in our national 
parks (except where Congress adopts an explicit authorization for a 
particular location). In its 1973 amendments to the MLA, Congress 
determined that our national parks would not be subject to the general 
ROW provisions. This specific exemption in the MLA protects the 
integrity, resources, and values of the National Park System. The 
significant infrastructure associated with the clearing, grading, 
trenching, stringing, welding, coating and laying of pipeline as well 
as the transportation of oil and gas products via pipeline, which 
carries the risk of oil spills and gas explosions, is inconsistent with 
the conservation mandate set forth in the NPS Organic Act. H.R. 2295 
would overturn longstanding and necessary protection of park system 
resources and values, visitor experience, and human health and safety, 
and would undermine the very purpose for which National Park System 
units were created.
    We note that the exclusion of national parks from the MLA has not 
prevented the issuing of rights-of-way for pipelines through national 
park units. In fact, the Department has supported legislation 
authorizing rights-of-way for oil and gas pipelines on a park by park 
basis, when it has been appropriate to do so. Recent cases include 
legislation authorizing rights-of-way at Denali National Park, Glacier 
National Park, Great Smoky Mountains National Park and Gateway National 
Recreation Area.
                               conclusion
    The BLM is working diligently to fulfill its role in securing 
America's energy future, coordinating closely with partners across the 
country to ensure that the development of energy resources occurs in 
the right places and that those projects are managed safely and 
responsibly.
    The agency has a proven record of facilitating responsible siting 
of natural gas pipelines and is already moving forward with refining 
and implementing existing corridors established for that purpose. Thank 
you for the opportunity to present testimony on H.R. 2295.

                                 ______
                                 

   Questions Submitted for the Record by Chairman Lamborn to Timothy 
 Spisak, Senior Advisor for Minerals and Realty Management, Bureau of 
                            Land Management
Mr. Spisak did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

    Question 1. As you mentioned in your testimony, ``since designation 
of the west-wide energy corridors in 2009, the Bureau of Land 
Management (BLM) has participated in the approval of nine major 
pipeline expansion projects totaling nearly 2,000 miles of new oil and 
gas pipeline with nearly 1,050 of those miles crossing Federal lands. 
In the next 18 months, the BLM is expected to complete review and 
disposition of three more major pipeline projects totaling nearly 1,000 
additional miles with nearly 450 of those miles across Federal lands.'' 
In order for the subcommittee to better understand current pipeline 
infrastructure, could you please provide the following:

    <bullet> The total number of miles of all pipelines crossing 
            Federal lands. Please provide a breakdown of miles of 
            pipeline by each agency (BLM, NPS, USFS, etc.).

    <bullet> The total acreage of all pipeline right-of-ways on all 
            Federal lands under the purview of your agency. Also, 
            please breakdown that information by state.

    <bullet> A map illustrating all pipelines that cross Federal lands.

    Question 2. The U.S. Department of the Interior has the authority 
to issue permits and right-of-ways (ROW) for the construction of 
natural gas pipelines across Federal land, except for National Park 
Service land. Under the Mineral Leasing Act (MLA), the BLM has the 
responsibility of reviewing those ROW applications and must render a 
decision on the future of the project.

    <bullet> What is the average time frame to process a ROW 
            application from submission to approval or rejection?

    <bullet> How many ROW applications were received by the BLM in each 
            of the past 10 fiscal years? Of those applications how many 
            were approved? How many of those applications were denied? 
            What was the reason for their denial? Please breakdown 
            based on type of ROW (ex. renewable, natural gas, 
            electricity transmission).

    <bullet> Please provide in detail a breakdown of all rentals and 
            cost recovery fees and any other revenue collected from 
            ROWs over the past 10 fiscal years. Please breakdown that 
            information based on type of ROW.

                                 ______
                                 

    Mr. Lamborn. Thank you. The Chair now recognizes Mayor 
Parker to testify.

 STATEMENT OF LINWOOD PARKER, MAYOR, TOWN OF FOUR OAKS, NORTH 
                            CAROLINA

    Mr. Parker. Mr. Chairman, Ranking Member, and members of 
the subcommittee, I've come today to talk a little about the 
end benefit of the natural gas pipelines. Last night, as I 
spent the night in Washington, it was a little sleepless. All 
young people, myself included, have a dream of coming to 
Washington and speaking to the leaders, and being able to utter 
some words that might unite us in something that will help our 
community. That dream was realized when you invited me to 
speak. I only hope that the words that I speak today will 
enable you to make a wise decision, because the people are in 
need.
    Our people need to be part of the manufacturing and 
building of products. We need to be competitive worldwide. In 
our community we have a business park and Becton Dickinson, an 
international medical device company which has the largest 
distribution site on the East Coast. But in Four Oaks we hope 
to be able to not only ship it, we hope to be able to make it 
and ship it. To be able to do that, we are going to need 
natural gas. Manufacturing requires natural gas.
    I am aware, as a lady told me once about an issue at home 
that I was involved in, that all pancakes have two sides. One 
might be just browner than the other. So I don't come today to 
argue the right or wrong of the other side of the pancake. I 
come today to simply say I am encouraged from what I have heard 
this morning, that this is a bipartisan bill, and the fact that 
you are moving swiftly to reach a decision that can affect so 
many people across the country.
    Let me tell you a little bit about my town. I am the mayor 
of the town, elected by my peers, just as you have been. My 
town is in eastern North Carolina. We are located on Interstate 
95, halfway between New York City and Miami. We take pride in 
our southern heritage. We have local merchants and business 
owners in historic downtown. We have a strong sense of 
community, just like thousands of other small towns across our 
wonderful Nation.
    I am here today, as the local mayor of these small towns, 
just one of those small towns, but I hope you will let me 
represent all of them. Four Oaks is located in Johnston County, 
in the eastern part of North Carolina. And it is important that 
you know a few things about eastern North Carolina, so you can 
better understand why I am here today. Eastern North Carolina 
has over 1.4 million residents and added, on average, 15,000 
residents per year since 2005. In 2013, the median household 
income was $40,469, compared to the national average of 
$52,250. Twenty percent of eastern North Carolina citizens were 
living in poverty, compared to 15 percent of the Nation's 
citizens. The number of new businesses started in the region 
has dropped 64 percent since 2005.
    Now, I don't know the intricacies of the bill. What I do 
know is that this bill will help quicken the development of 
future energy infrastructure and lead to much-needed increase 
in industry in the towns, cities, states across the Nation. My 
town is made up of many honorable men and women, and they all 
have something in common. They want and they need to be able to 
provide better for their family, and they want to see a better 
life and better opportunity for their children.
    In closing, I want to pass this on to you. I talked with 
one of my neighbors, a constituent, before I left. And he 
passed this on to me, and I will pass it on to you. He said, 
``When you get there, tell them we all we got.'' Now, I know 
that is not perfect English. But what he was saying is that we 
are all we've got. We are in this together. And we have to be 
part of the solution. I believe I am here, and I am hearing 
that we are going to be part of that solution that is going to 
create those jobs, those manufacturing jobs we need, because we 
all know that the most empowering thing in life, outside of our 
faith, is a paycheck on Friday. And I hope this will be the end 
result of these hearings.
    Thank you.
    [The prepared statement of Mr. Parker follows:]
 Prepared Statement of Linwood Parker, Mayor, Town of Four Oaks, North 
                                Carolina
    Good Morning. My name is Linwood Parker, and I am the mayor of Four 
Oaks, North Carolina. All of you are leaders, and what you do is 
important. Like you, I'm a leader but in my small town of Four Oaks.
    Let me tell you a little bit about Four Oaks, North Carolina. We're 
located right on I-95 halfway between New York City and Miami. We take 
pride in our southern heritage, local merchants and business owners, 
and historic downtown. We have a strong sense of community, just like 
thousands of other small towns across our wonderful Nation. I'm here 
today as the local mayor of just one of those small towns, but I hope 
you'll let me represent all of them.
    Four Oaks is located in Johnston County, in the eastern part of 
North Carolina. And, it's important that you know a few things about 
eastern North Carolina, so you can better understand why I'm here 
today. Eastern North Carolina has over 1.4 million residents, and has 
added, on average, 15,000 residents per year since 2005. In 2013, the 
median household income was $40,469, compared to the Nation's average 
of $52,250. Twenty percent of eastern North Carolina citizens were 
living in poverty, compared to 15 percent of the Nation's citizens. The 
number of new business starts in the region has dropped 64 percent 
since 2005.
    Now, I don't know the intricacies of this bill. But, what I do 
know, is that this bill will help quicken the development of future 
energy infrastructure, and will lead to a much needed increase in 
industry in towns, cities, and states across the Nation. My town of 
Four Oaks is made up of truck drivers, restaurant workers, mill 
workers, auto mechanics, and many other honorable men and women, and 
they all have something in common. They want and need to be able to 
provide better for their families, and they want to see a better life 
with better opportunities for their children. It's the possibility of 
the American Dream, and they desperately want their children to be able 
to dream like we've been able to in decades past.
    In order to create these opportunities, we desperately need 
infrastructure. Projects like the Atlantic Coast Pipeline, and the work 
that you're doing to safely expedite these projects, create a lifeline 
for communities like mine to grow and prosper. A type of growth and 
prosperity that Four Oaks, eastern North Carolina, and towns across the 
Nation haven't seen in years.
    The people of eastern North Carolina have an immense amount of 
pride in their towns, region, and heritage, but that pride has taken a 
beating in recent years with jobs harder and harder to come by, and 
quality of life continuing to diminish. And we're just one example of 
that. There are other Linwood Parkers across this Nation. There are 
other small towns in need. There are other regions of states and of the 
United States. We all desperately need a catalyst, and I believe that 
catalyst is natural gas pipeline infrastructure. And, in addition to 
providing much needed natural gas infrastructure, let's not forget that 
if we are going to continue to provide electricity to the Nation, we 
need natural gas.
    For eastern North Carolina, that infrastructure will come from the 
Atlantic Coast Pipeline. The increased availability of natural gas 
supplies in North Carolina will mean more jobs, lower prices to heat 
and power homes and businesses, and cleaner air due to fewer emissions 
from generating power with natural gas. It will save North Carolina 
energy consumers over $130 million per year. It will create economic 
activity in excess of $82 million in North Carolina. It will bring over 
$1.1 million in property tax payments annually to Johnston County, 
where my town of Four Oaks is located.
    What's more, at a time of economic restoration, the Atlantic Coast 
Pipeline will give access to natural gas to help our communities 
attract the companies and industries we desperately need to give the 
hope of a better future to our friends and families. I believe that 
increased access to clean, affordable, reliable, and domestically 
abundant natural gas will result in lower costs to families and help 
spur economic growth in underserved areas. This project will also bring 
much needed property tax revenue to the eight counties that it will run 
through, which will be helpful to create additional economic 
development and education opportunities for our local communities, 
including my town of Four Oaks.
    The Atlantic Coast Pipeline is just one example of a project that 
can provide a wealth of opportunities in an area of our country that is 
desperate for them. But I'm not here today to focus solely on my small 
town or my state or this one project. I'm here as a voice for all small 
town mayors who are working tirelessly to bring hope and opportunities 
to the people they represent. The great people of the town of Four Oaks 
voted me into office, just like the great people of this Nation voted 
you into this office. Your work here is so important because you have a 
chance to create lifelong opportunities for communities like mine, and 
many, many others throughout the United States.
    I thank you for your time today, and for your hard work and 
dedication to our wonderful country.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    The Chair now recognizes Mr. Moore to testify.

     STATEMENT OF JIM MOORE, VICE PRESIDENT OF COMMERCIAL 
       OPERATIONS, WILLIAMS GAS PIPELINES, HOUSTON, TEXAS

    Mr. Moore. Good morning. Chairman Lamborn, Ranking Member 
Lowenthal, and the rest of the subcommittee, I am privileged to 
appear before the subcommittee today to speak in favor of H.R. 
2295, legislation to restore to the National Park Service the 
authority it was thought to have for decades: the power to 
grant natural gas pipeline rights-of-way to cross property 
owned or administered by the National Park Service.
    I am Jim Moore, Vice President of Commercial Operations for 
eastern interstate pipelines at the Williams Companies, one of 
the larger natural gas infrastructure companies in the United 
States.
    By virtue of our long history of building and operating 
interstate pipelines, we have had many occasions to work with 
the Interior Department and, specifically, the National Park 
Service. Segments of our pipelines touch national park property 
in at least three locations today. In two cases, those 
pipelines have coexisted with the parks for decades. In the 
case of the third, located in the New York City area, we have 
just recently completed the project.
    In addition, other pipeline companies have similar 
crossings on national park property. I certainly believe that 
the Interior Department is very capable about making decisions 
about pipelines crossing national park property. The National 
Park Service has a long history of carefully evaluating natural 
gas pipeline proposals before they are brought to Congress for 
approval. Clarifying that the Department of the Interior has 
the authority to approve natural gas pipeline crossings of 
National Park Service property will not only lead to a 
continuation of this thorough evaluation of such requests, but 
will, at the same time, eliminate the delay projects encounter 
while waiting for congressional action to approve those 
decisions.
    To my knowledge, no pipeline company has sought legislation 
to allow park crossing without first conferring with the 
National Park Service, and Congress has not considered such 
legislation without asking the National Park Service for its 
input. The added step of congressional approval delays 
projects--in some cases for years--while the pipeline company, 
its customers, and the National Park Service await 
congressional action.
    The case with which I am most familiar involved expanding 
natural gas service into New York City, specifically Brooklyn 
and Queens, and was largely needed to meet increased demand due 
to customers switching away from fuel oil to natural gas. My 
company, Williams, worked with our local distribution company 
customer to develop an infrastructure solution which would have 
minimal impact on residents of the city. The only practical 
route involved drilling under part of the Gateway National 
Recreation Area, which is managed as a national park, and 
locating a meter station in the park. That solution was widely 
supported by local officials, the governor of New York, and 
even some local park groups.
    The cost of the project posed several unique challenges. 
Our discussions with the National Park Service were long and 
detailed, but they ultimately resulted in an agreement that 
both sides found acceptable. We originally started discussions 
with Members of Congress about the need for legislation to 
approve the crossing in 2009. A bill addressing the issue was 
introduced in 2011, and ultimately enacted at the end of 2012. 
During that time, agency work on our application for the 
project slowed considerably, we believe, due to the uncertainty 
around the timing of the necessary congressional action.
    It is difficult to say with certainty exactly how much time 
the requirement for congressional approval of the agreement 
added to the project, but the project ultimately took 6 years 
to complete, almost 3 years more than planned. This type of 
delay and uncertainty makes it difficult and costly to add the 
necessary pipeline infrastructure to meet customer needs for 
clean-burning natural gas.
    Williams works very hard on all of its projects to minimize 
any property and environmental impact, while ensuring adequate 
natural gas supply infrastructure is in place to meet the needs 
of individuals, business, and industry. We actively engage all 
parties to find the best way to do this, and I believe other 
pipeline companies do the same. In my opinion, the National 
Park Service has fully demonstrated the capability to engage 
with pipeline companies on this issue, while protecting the 
property in their care, and we look forward to working with 
them in the future.
    So, Mr. Chairman, we commend the committee for considering 
this important legislation to further improve the efficiency 
with which natural gas pipeline infrastructure is developed. 
Thank you again for allowing me the opportunity to appear 
before this subcommittee.
    [The prepared statement of Mr. Moore follows:]
     Prepared Statement of Jim Moore, Vice President of Commercial 
                  Operations at the Williams Companies
    Good morning. Chairman Lamborn and Ranking Member Lowenthal, I am 
privileged to appear before the subcommittee today to speak in favor of 
H.R. 2295, legislation to restore to the National Park Service the 
authority it was thought to have for decades--the power to grant 
natural gas pipelines rights-of-way to cross property owned or 
administered by the National Park Service.
    I am Jim Moore, Vice President of Commercial Operations for eastern 
interstate pipelines at the Williams Companies, one of the larger 
natural gas infrastructure companies in the United States. By virtue of 
our long history of building and operating interstate natural gas 
pipelines, we have had many occasions to work with the Interior 
Department and specifically the National Park Service. Segments of our 
pipelines touch national park property in at least three locations 
today. In two cases those pipelines have coexisted with the parks for 
decades. In the case of the third, located in the New York City area, 
we have just recently completed the project. In addition other pipeline 
companies have similar crossings of national park property.
    I certainly believe that the Interior Department is very capable of 
making decisions about pipelines crossing national park land. The 
National Park Service has a long history of carefully evaluating 
natural gas pipeline proposals before they are brought to Congress for 
approval. Clarifying that the Department of Interior has the authority 
to approve natural gas pipeline crossings of National Park Service 
property will not only lead to a continuation of a thorough evaluation 
of such requests, but will at the same time eliminate the delay 
projects encounter while waiting for congressional action to approve 
that decision.
    I believe it may help the subcommittee if I put this issue in some 
historical context. When the original statutes creating the national 
park system were passed in the early part of the last century, the 
National Park Service was given the authority to grant rights-of-way 
across park land for most forms of utility-type infrastructure, 
including power plants, electric lines, telephone lines, and water 
pipelines, among others. Natural gas pipelines as we know them today 
were not common at the time, but they certainly seem to fit into the 
intent of the original legislation. As new parks were created over the 
years, many of them already included pipelines, most if not all of 
which continue to operate to this day. In addition, the Interior 
Department over the years approved a number of pipeline crossings of 
parks using the authority in the organic park statute and to our 
knowledge, there was no objection to these authorizations.
    I make this point because last year the committee held a hearing on 
this issue where the Administration testified that giving the Interior 
Department the authority to approve oil and gas pipelines was 
``inconsistent with the mandate set forth in the NPS Organic Act'' and 
would ``undermine the very purpose for which Nation Park System units 
were created.''
    However, the Act itself accommodated the permitting of 
infrastructure, some of it much more intrusive than underground natural 
gas pipelines.
    The Administration and the National Parks Conservation Association 
also noted that when the Mineral Leasing Act was amended in 1973 one of 
those amendments was to exclude national park land from the land that 
could be leased for pipelines rights-of-way. This provision is cited as 
evidence by opponents of this legislation that Congress did not want 
the Interior Department making these decisions. Yet at the time the 
prohibition was put into the Mineral Leasing Act, the Interior 
Department believed it already had such authority under the Organic 
Act. Indeed, the 1973 Senate Committee report accompanying its bill, 
where this provision originated, noted that congressional action to 
approve pipelines would only be required to the extent such a project 
couldn't be permitted under the Organic park statute. If Congress truly 
disagreed with the Department making decisions about pipelines in 
parks, it seems that Congress would have prohibited the practice under 
both the Mineral Leasing Act and the Organic park statute. It wasn't 
until 1988, 15 years later, that a solicitor at the Department decided 
that the Organic Act did not grant this authority.
    All of this is to say that the notion of the Department of Interior 
evaluating and approving or disapproving natural gas pipelines on 
National Park Service property is not a new concept to be feared; 
rather it is an old concept that the legislation before the committee 
would reinstate.
    Mr. Chairman, it is our experience that the National Park Service 
is a diligent defender of the land it administers. To my knowledge, no 
pipeline company has sought legislation to allow a park crossing 
without first conferring with the National Park Service, and Congress 
has not considered such legislation without asking the National Park 
Service for its input. After all, it would be pointless for Congress to 
consider such legislation if the Park Service had already decided to 
reject the requested crossing.
    The added step of congressional approval delays projects, in some 
cases for years, while the pipeline company, its customers and the 
National Park Service await congressional action.
    The case with which I am most familiar involved expanding natural 
gas service into New York City, specifically Brooklyn and Queens, and 
was largely needed to meet increased demand due to customers switching 
away from fuel oil to natural gas. My company, Williams, worked with 
our local distribution company customer to develop an infrastructure 
solution which would have minimal impact on residents of the city. The 
only practical route involved drilling under part of the Gateway 
National Recreation Area, which is managed as a national park, and 
locating a meter station in the park. That solution was widely 
supported by local officials, the governor of New York and even local 
park groups. Because the project posed several unique challenges, our 
discussions with the National Park Service were long and detailed but 
they ultimately resulted in an agreement that both sides found 
acceptable. We originally started discussions with Members of Congress 
about the need for legislation to approve the crossing in 2009. A bill 
addressing the issue was introduced in 2011 and ultimately enacted at 
the end of 2012. During that time agency work on our application for 
the project slowed considerably, we believe due to the uncertainty 
around the timing of the necessary congressional action. It's difficult 
to say with certainty exactly how much time the requirement for 
congressional approval of the agreement added to the project, but the 
project ultimately took 6 years to complete, at least 2 years more than 
planned. This type of delay and uncertainty makes it difficult and 
costly to add the necessary pipeline infrastructure to meet customer 
needs for clean burning natural gas.
    Mr. Chairman, it is long overdue that Congress remove itself from 
this process. If the National Park Service had a poor track record in 
evaluating and allowing pipeline utilization of national park property 
that would be one thing, but it actually has an excellent record in 
that regard, including during the decades when it believed it possessed 
the authority to site these facilities.
    Williams works very hard in all of its projects to minimize any 
property and environmental impact while ensuring adequate natural gas 
pipeline infrastructure is in place to meet the needs of individuals, 
business and industry. We actively engage all interested parties to 
find the best way to do this and I believe other pipeline companies do 
the same. In my opinion the National Park Service has fully 
demonstrated the capability to engage with pipeline companies on this 
issue while protecting the property in their care and we look forward 
to working with them in the future.
    So Mr. Chairman we commend the committee for considering this 
important legislation to further improve the efficiency with which 
natural gas pipeline infrastructure is developed. Thank you again for 
allowing me the opportunity to discuss this issue with the subcommittee 
today.

                                 ______
                                 

 Questions Submitted for the Record by Ranking Member Lowenthal to Jim 
                     Moore, Williams Gas Pipelines
    Question 1. Mr. Moore, in your written testimony, you imply that 
the 1973 Senate Committee Report for the amendments to Section 28 of 
the Mineral Leasing Act indicated that Congress was not trying to stop 
pipelines from being sited in national parks. Your testimony states 
that in the Report, the Senate committee ``noted that congressional 
action to approve pipelines would only be required to the extent such a 
project couldn't be permitted under the Organic park statute.'' Your 
testimony then states, ``If Congress truly disagreed with the 
Department making decisions about pipelines in parks, it seems that 
Congress would have prohibited that practice under both the Mineral 
Leasing Act and the Organic park statute.'' It is not clear whether you 
are referring to the National Park Service Organic Act or the organic 
acts that create individual national parks. The Senate report, however, 
appears to be perfectly clear when it states, ``It is not intended to 
grant rights-of-way through the National Park System under this bill.'' 
[S. Rept. 93-207 at 29] It further clearly states that the only three 
parks that have independent right-of-way authority are the Blue Ridge 
Parkway, the C and O Canal, and the Natchez Trace Parkway, and that for 
all other parks, ``separate authority would be sought for each such 
right-of-way where none now exists.'' [ibid]

    Given this, do you agree that the plain text of the Senate Report 
indicates that in 1973 Congress was aware of the existing authorities 
available for granting rights-of-way through the National Park System 
as a whole, and through the three individual parks that have their own 
right-of-way authorities, and that Congress did not intend in the 1973 
amendments to the Mineral Leasing Act to provide general authority to 
permit rights-of-way for through the National Park System? ''

    Answer. During consideration of the 1973 amendments to the Mineral 
Leasing Act (MLA) the Senate proposed, and the House accepted, that the 
pipeline right-of way provisions of the MLA should not apply to oil and 
gas pipelines on ``lands in the National Park System'' and certain 
other categories of lands. The report states, just prior to the 
language quoted in your question, ``. . . that rights-of-way across 
these excluded lands [including NPS lands] shall continue to be 
governed by existing statutory authority with respect to each category 
of lands.'' The Report language continues ``To the extent there is 
inadequate authority under existing law . . . separate authority would 
be sought for each such right-of-way where none exists now.'' The 
report goes on to cite the three park statutes you quote in your 
question as being illustrative of where such authority exists, but I do 
not believe the report implies that they are the only such authority.

    Supporting this view, a hearing was held on this issue in 1992 by 
this committee where the Interstate Natural Gas Association of America 
testified: ``Until relatively recently, the NPS issued special use 
permits allowing natural gas pipelines to be installed across National 
Park Service lands on a case-by-case basis. A number of existing 
pipelines currently cross these lands. The NPS has never indicated this 
policy is the cause of any problems.''

    At the time of the 1973 amendments to the MLA it was accepted 
practice for the NPS to grant rights-of-way for natural gas pipelines 
using what it believed was authority granted to it under the National 
Park Service Organic Act of the early 1900s. In 1973 Congress would 
have been well aware of this practice and while Congress did not 
explicitly endorse this practice in the law or in the report language, 
neither did it say this practice was improper. It almost seems that 
Congress did not feel that the legality of pipeline permitting under 
the National Park Service Organic Act needed to be addressed in the MLA 
and so far as I know, the issue has never been addressed by the courts.

    My answer to the first part of your question is that yes, I agree 
that the 1973 amendments to the MLA were not intended to give the Park 
Service new authority to permit pipelines but I would also maintain 
that neither did it intend to override the status quo, which included 
at that time an interpretation that the Park Service had the authority 
to issue rights-of-way under the original National Park Service Organic 
Act.

    Question 2. Your written testimony states that a solicitor at the 
Department of the Interior determined in 1988 that the ``Organic Act'' 
did not grant the authority to the National Park Service to permit 
rights-of-way through national parks. Do you have documentary evidence 
from 1988 to support this statement? If so, please provide that 
evidence to the committee.

    Answer. Attached is a letter from the Solicitor's office at the 
Department of Interior informing the Colonial Pipeline Company that its 
request for a right-of-way across National Park Service land is being 
refused on grounds that the NPS does not have authority to grant such a 
permit. I believe this letter is the first time the Department's 
revised interpretation of its authority pursuant to the National Park 
Service Organic Act was implemented. The change in policy was first 
reflected in the ``General Management Plan and National Park Service 
Policy'' document released a year or two before this letter was 
written.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                                                 
    Mr. Lamborn. Thank you.
    The Chair now recognizes Mr. McGarvey to testify.

STATEMENT OF SEAN McGARVEY, PRESIDENT, NORTH AMERICA'S BUILDING 
                 TRADES UNIONS, WASHINGTON, DC

    Mr. McGarvey. Thank you, Mr. Chairman, Mr. Ranking Member, 
members of the committee. On behalf of the 3 million skilled 
craft professionals in the United States and Canada that 
comprise the 14 national and international unions of North 
America's Building Trade Unions, I thank you for conducting 
this hearing, and I welcome the opportunity to testify today in 
support of the proposed National Energy Security Corridors Act.
    Ensuring that our Federal permitting system has integrity 
and certainty is critical to ensuring that the workers that I 
represent are able to work. Further, good regulation protects 
our workers and communities, while not placing unnecessary 
burdens on business and job creators. This legislation will 
provide the necessary framework needed to create energy 
corridors on Federal lands to bring natural gas from well to 
the consumer. It would hold one agency accountable for the 
permit, while ensuring that other agencies not fall behind and 
create a bottleneck. America is now the global leader in oil 
and natural gas production, but our infrastructure to transport 
those resources to consumers, businesses, and refineries is 
being severely hampered, because of unnecessary regulatory 
hurdles.
    To be sure, pipeline infrastructure has failed to keep pace 
with the increased production, which has caused several regions 
of the country to experience shortages and severe price spikes. 
New England is a perfect example to demonstrate how the lack of 
sufficient pipeline infrastructure has adverse effects on both 
businesses and consumers.
    In 2000, only 15 percent of New England's electric energy 
production was from natural gas-fueled power plants. By 2015, 
that number is fast approaching 50 percent. Northeast gas 
transmission has not kept pace with this growth. As a result, 
there is simply not enough gas coming into the region to 
reliably and affordably power businesses and manufacturing 
plants. If there were a corridor, a single lead agency, as well 
as accountability, the needs of millions of residential gas 
customers could be met without excessive delays. Investment in 
capital construction spending is not only an economic stimulus, 
but it provides insightful data on how shale-driven gas 
production is reshaping major sectors of our economy, including 
the construction industry.
    Last fall, a study conducted by the University of Illinois 
concluded that natural gas development in the Marcellus region 
was directly responsible for over 72 million man-hours of work 
in local construction markets during the years 2008 to 2014. 
Those 72 million man-hours of construction work translated into 
the creation of roughly 45,000 jobs.
    Today, in just about every region of this Nation, we are 
experiencing a shortage of pipeline capacity to support 
increased gas electric generation. Fortunately, we are not 
experiencing a shortage of companies willing to invest the 
necessary capital to construct those projects. What we are 
experiencing, however, are significant regulatory delays that 
are preventing these investments from moving forward.
    Currently, the United States ranks 41st in the world in 
dealing with construction permits, a key World Bank metric 
measuring how easy it is to actually build something. That is 
why North America's Building Trade Unions commend Congressman 
Tom MacArthur for his work to craft a legislative proposal that 
would designate the National Energy Security Corridors for the 
construction of natural gas pipelines on Federal land.
    When it comes to construction of our Nation's energy 
infrastructure, North America's Building Trade Unions are at 
the center of this work. The success of our unions is 
predicated on the recruitment, development, and training of the 
safest, most highly trained and productive skilled craft 
workforce found anywhere in the world. It may surprise members 
of this panel to learn that our rank-and-file members, in 
conjunction with our signatory contractors, collectively and 
jointly fund, to the tune of roughly $1 billion a year, a 
nationwide network of 1,600 local joint labor-management 
apprenticeship training programs, or JATCs, as we call them.
    All these investments are private investments from our 
rank-and-file members and our contractors. There is no taxpayer 
money involved. In order for this training infrastructure to 
prosper and succeed, we need both public and private 
investments in capital construction projects in order to create 
those structured career-training opportunities. With the 
passage of this and other permitting reform efforts, we can 
allow the billions of dollars in projected pipeline investments 
to move forward in an expedited fashion, and our unions and 
contractors can utilize our market-driven, world-class training 
infrastructure to provide structured career training pathways.
    Mr. Chairman and members of this subcommittee, let me be 
clear. My members want to get to work on these critical 
projects, and our unions and our contractor partners want to 
provide job-training opportunities for your constituents. North 
America's Building Trade Unions stand ready to work with this 
subcommittee, as well as the full Natural Resources Committee 
and the entire U.S. Congress to pass the National Energy 
Security Corridors Act, as well as additional and innovative 
laws, regulations, and mechanisms that will expedite the 
approval of critical energy infrastructure projects. Our 
training facilities are built, our workers are standing by, and 
our unions are ready to assist the American energy 
infrastructure revolution.
    Thank you for providing me the opportunity to express these 
views here today, and I look forward to any questions you may 
have.
    [The prepared statement of Mr. McGarvey follows:]
    Prepared Statement of Sean McGarvey, President, North America's 
                         Building Trades Unions
    On behalf of the 3 million skilled craft professionals in the 
United States and Canada that comprise the 14 national and 
international unions of North America's Building Trades Unions, I thank 
you for conducting this hearing and I welcome the opportunity to 
testify today in support of the proposed National Energy Security 
Corridors Act.
    Ensuring that our Federal permitting system has integrity and 
certainty is critical to ensuring that the workers I represent are able 
to work. Further, good regulation protects our workers and communities 
while not placing unnecessary burdens on business and job creators. 
This legislation will provide the necessary framework needed to create 
energy corridors on Federal lands to bring natural gas from the well to 
the consumer. It would also hold agencies accountable and makes sure 
they do not fall behind and create a bottleneck.
    America is facing a number of infrastructure challenges, including 
the need to construct more natural gas pipelines. In order to meet 
increased demand as domestic natural gas production continues to 
increase and continues to gain a greater market share of the Nation's 
electricity portfolio, greater capacity in our natural gas pipeline 
infrastructure is desperately needed.
    Seemingly overnight, America is now the global leader in oil and 
natural gas production. But the infrastructure needed to transport 
those resources for domestic use by consumers and businesses, as well 
as for refinement into other manufactured products, is being severely 
hampered because of unnecessary regulatory hurdles.
    To be sure, pipeline infrastructure has failed to keep pace with 
increased production, which has caused several regions of the country 
to experience shortages and severe price spikes.
    New England is a perfect example to demonstrate how the lack of 
sufficient pipeline infrastructure can had adverse effects on both 
businesses and consumers.
    In 2000, only 15 percent of New England's electric energy 
production was from power plants that were fueled by natural gas. By 
2015, that number was fast approaching 50 percent. Unfortunately, 
pipeline capacity for gas transmission into New England has not kept 
pace.
    As a result, there is simply not enough gas coming into the region 
to reliably or affordably power businesses and manufacturing plants, as 
well as meeting the needs of millions of residential gas customers.
    As the region's older, dirtier plants continue to retire and new, 
cleaner gas-fired plants replace them, the situation is primed to get 
worse. In fact, about 63 percent of the region's 11,000 megawatts of 
proposed new generation will be gas-fired.
    Incredibly, I have read news accounts where some local gas 
companies already have been forced to turn away new customers because 
they won't have enough gas in a few years to serve them.
    Driven by growth in U.S. natural gas, natural gas liquids, and 
crude oil, the American Petroleum Institute has estimated that capital 
spending in oil and gas midstream and downstream infrastructure has 
increased by roughly $100 billion since 2010.
    Investments in building, maintaining and updating the oil and 
natural gas industry's transportation and storage infrastructure could 
contribute up to $120 billion to the economy per year. And investment 
in the infrastructure that moves and transforms oil and gas into 
everyday products could support as many as 1.15 million jobs on an 
average annual basis, including and especially over 800,000 jobs in 
pipeline construction alone. And like all manner of infrastructure 
investments, there is a significant economic multiplier associated with 
energy infrastructure investments.
    Capital investments in energy infrastructure lead to more revenue 
and output among supplier industries, such as steel, machinery and 
engineering services. This capital investment triggers an estimated $45 
billion per year throughout the extended supply chain. Investment in 
capital construction spending is not only an economic stimulus, but it 
provides insightful data on how shale driven gas production is 
reshaping major sectors of our economy--including the construction 
industry.
    Last fall a study conducted by the University of Illinois concluded 
that natural gas development in the Marcellus region was directly 
responsible for over 72 million man-hours of work in local construction 
markets during the years 2008 to 2014. It is worth noting that this was 
a period when the U.S. construction industry was mired in a Depression 
where, unfortunately, unemployment rates in some markets of the Nation 
reached 60 percent, and in some cases exceeded 70 percent.
    Those 72 million man-hours of construction work translate into the 
creation of roughly 45,000 jobs. The production of natural gas spared 
small towns across the region from the economic downturn felt 
throughout much of the rest of the country. This would never have 
materialized if not for the production of natural gas in the Marcellus 
region and the energy infrastructure that needed to be built to deliver 
that gas to market.
    Today in just about every region of the Nation, we are experiencing 
a shortage of pipeline capacity to support increased gas-electric 
generation. Fortunately, we are not experiencing a shortage of 
companies willing to invest the necessary capital to construct those 
projects.
    What we are experiencing, however, are significant regulatory 
delays that are preventing these investments from moving forward. 
Currently, the United States ranks 41st in the world in ``Dealing with 
Construction Permits,'' a key World Bank metric measuring how easy it 
is to actually build something.
    An industry or company which seeks to undertake capital projects 
often must run the gauntlet of a dozen separate agency reviews and 
approvals, sometimes resulting in years of delays. Excessive delay in 
permit processing often results from overlapping agency authority, 
where no single agency is in a position to guide a company through the 
permitting process and any one agency can act as a bottleneck. These 
issues directly impact the construction of pipelines on Federal lands.
    That is why North America's Building Trades Unions commends 
Congressman Tom McArthur for his work to craft a legislative proposal 
that would designate ``National Energy Security Corridors'' for the 
construction of natural gas pipelines on Federal land.
    Through the regulatory processes that these projects must undergo, 
as well as the enhancement of efficiencies made possible through this 
effort, we can remove obstacles that lead to the creation of tens of 
thousands of good, solid, Middle Class American jobs; not to mention 
tens of thousands of career training opportunities in the skilled 
trades.
    When it comes to the construction of our Nation's energy 
infrastructure, North America's Building Trades Unions are at the 
center of this work. The success of our unions is predicated on the 
recruitment, development, and training of the safest, most highly 
trained and productive skilled craft workforce found anywhere in the 
world.
    It may surprise many members on this panel to learn that our rank 
and file members, in conjunction with our signatory contractors, 
collectively and jointly fund, to the tune of roughly $1 billion 
dollars every year, a nationwide network of 1,600 local joint labor-
management apprenticeship training programs, or JATCs as we call them. 
All of these investments are private investments from our rank and file 
members and our contractors. There is no taxpayer money involved in 
this system!
    Further our ``earn while you learn'' training model--where our 
apprentices are paid wages and benefits as they proceed through a 4- or 
5-year apprenticeship--is also unique in that in many instances our 
craft training programs are also accredited to a community college. So, 
upon graduation to journeyperson status, many of our apprentices also 
graduate with a 2-year Associates Degree.
    But in order for this training infrastructure to prosper and 
succeed, we need both public and private investments in capital 
construction projects in order to create these structured career-
training opportunities.
    With the passage of this and other permitting reform efforts we can 
allow the billions of dollars in projected pipeline investments to move 
forward in an expedited fashion, and our unions and contractors can 
utilize our market-driven, world-class, training infrastructure to 
provide structured career training pathways.
    North America's Building Trades Unions believe that government must 
assume the role of an advocate for economic development, and an 
advocate for American workers and American jobs. My members want to get 
to work on these critical projects. And our unions and our contractor 
partners want to provide job training opportunities for your 
constituents.
    And that means getting tough on the Federal permitting process 
charged with approving projects that put Americans to work and, in the 
case of the pipeline trades, beginning to move dirt and construct the 
pipelines needed to bring our domestic energy resources to market.
    North America's Building Trades Unions stand ready to work with 
this subcommittee, as well as the full Natural Resources Committee and 
the entire U.S. Congress to pass the National Energy Corridors Act, as 
well as additional and innovative laws, regulations and mechanisms that 
will expedite the approval of critical energy infrastructure projects.
    Our training facilities are built, our workers are standing by, and 
our unions are ready to assist in an American energy infrastructure 
revolution.
    Thank you for providing me the opportunity to express these views 
here today. I look forward to any questions you may have.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    The Chair now recognizes Mr. Buppert to testify.

    STATEMENT OF GREGORY BUPPERT, SENIOR ATTORNEY, SOUTHERN 
      ENVIRONMENTAL LAW CENTER, CHARLOTTESVILLE, VIRGINIA

    Mr. Buppert. Good morning. Thank you, Mr. Chairman, Mr. 
Ranking Member, and members of the committee. My name is Greg 
Buppert. I am a lawyer with the Southern Environmental Law 
Center (SELC) in Charlottesville, Virginia. I appreciate the 
chance to address this subcommittee about the process for 
locating interstate natural gas pipelines.
    Right now this is an issue of critical importance to 
communities in Virginia, where I live and work. The 
transmission of natural gas from the Marcellus Shale is a new 
challenge for Virginia. We are looking for solutions. SELC 
supports a regional planning process that draws on input from 
affected communities for locating natural gas pipelines.
    Unfortunately, this legislation doesn't provide that 
opportunity. Instead, it would cut the public out of the 
process, it would lead to more conflicts, and pose greater 
burdens on private property and local communities.
    In the last year, companies proposed three natural gas 
pipelines across western Virginia. These pipelines, if they 
were built, would impact some of our states' most iconic 
landscapes, like the Blue Ridge Mountains and the Shenandoah 
Valley. They would cross many acres of public and private 
lands, and they have encountered broad opposition.
    The principal reason for the public's concern is that these 
projects are not innocuous undertakings. Take the Atlantic 
Coast pipeline--during construction, this pipeline will impact 
almost 13,000 acres in three states. Any project at this scale 
would be disruptive. But then this will not be just any 
project. Much of the route will be built on private land 
acquired under the threat of eminent domain.
    Many landowners are concerned about the springs and wells 
on their property that provide their drinking water. One 
landowner in Lovingston told FERC that the pipeline would pass 
through four springs and one well, every single water source on 
his property. Larger communities are also concerned about 
water. Augusta County, for example, depends on high-yield wells 
for its municipal water, and the county's experts concluded 
that blasting for the pipeline threatened this water supply.
    Other landowners are concerned about the investments they 
have made in their property. One has spent three decades 
managing his forest for hardwood timber. Another has built an 
inn near the Blue Ridge Parkway. The pipelines would affect 
both.
    The point of these examples is that pipeline construction 
does not happen in a vacuum. These projects will have real 
impacts that must be understood before a route is approved. The 
Atlantic Coast pipeline and the Mountain Valley pipeline 
projects were announced last summer. Each company rejected a 
route similar to the others as too environmentally harmful for 
their project.
    For the public, there is little belief that these companies 
have anything other than their own self-interest at heart. What 
we need in Virginia right now is a regional plan. We need to 
know whether the demand for natural gas justifies new pipeline 
infrastructure in our state. And, if a new pipeline is needed, 
we need to identify a route that is the most protective of 
private property, local communities, and the environment of the 
entire region. This approach only makes sense.
    We can agree, I think, that responsible, deliberate 
planning is how we should build large-scale infrastructure that 
impacts thousands of acres. We should avoid unnecessary 
construction by answering the question: Do we need a new 
pipeline? And, if the answer is yes, we need to find the best 
and least harmful way to do it.
    The designation of pipeline corridors on Federal lands is 
one possible outcome of a regional planning effort. But this 
cannot and should not be done without public involvement. Nor 
should there be an arbitrary, mandatory requirement that 10 
such corridors be designated in the East. In Virginia, and 
elsewhere in the Southeast, our public lands are intertwined 
with our communities. Shenandoah National Park and our national 
forests bolster our economy. They provide abundant clean water 
to our towns and our businesses, and they draw millions of 
visitors. A corridor cannot be sited across a national park or 
a national forest without immediate direct impacts to the 
adjacent private properties and the local economy.
    The proposed Act does not provide the planning tool that we 
need. It puts a finger on the scale in favor of pipeline 
construction over other uses of the public lands, including our 
national parks, all the while cutting the public out of the 
siting process. In order to get this right in Virginia, and 
everywhere else, and minimize the impacts of natural gas 
pipelines, we need public involvement. Short-circuiting that 
process will only lead to more conflicts and place greater 
burdens on private property and local communities.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Buppert follows:]
     Prepared Statement of Greg Buppert, Senior Attorney, Southern 
                        Environmental Law Center
I. Introduction
    Good morning. Thank you, Mr. Chairman, Mr. Ranking Member, and 
members of the committee. I appreciate the chance to address this 
subcommittee about the process for permitting and locating interstate 
natural gas pipelines. Right now, this is an issue of critical 
importance to communities throughout Virginia where I live and work.

    I would like to bring two points to your attention during my 
testimony this morning:

    <bullet> First, the development of large-scale interstate pipelines 
            that cross Federal lands in Virginia will have significant 
            impacts on private property and local communities.

    <bullet> Second, the only responsible way to locate pipeline 
            infrastructure is a deliberate planning process that draws 
            heavily on input from the affected communities.

    Unfortunately the proposed National Energy Security Corridors Act 
does not provide that opportunity. Instead, the legislation would cut 
the voice of the public out of the siting process, leading to more 
conflicts and placing greater burdens on private property and local 
communities.
II. Proposed pipelines that cross Federal lands in Virginia will have 
        significant impacts for private property and local communities
    In the last year, companies proposed three large-diameter gas lines 
across western Virginia. These pipelines, if they are built, would 
impact some of our state's most iconic landscapes: the Blue Ridge 
Mountains, the Allegheny Mountains, the Shenandoah Valley, and the New 
River Valley. They would traverse public lands on the Blue Ridge 
Parkway, the Appalachian Trail, and national forests. And they would 
cross many acres of private lands.
    The community groups that we work with are deeply involved in two 
of these projects, the Atlantic Coast Pipeline and the Mountain Valley 
Pipeline, which are seeking approval from the Federal Energy Regulatory 
Commission. Both of these projects have encountered broad opposition in 
the counties that they will cross.
    One reason for the public's concern is that these projects will not 
be innocuous undertakings. Take the Atlantic Coast Pipeline for 
example. During construction, this pipeline will impact almost 13,000 
acres in three states. Any project at this scale would be disruptive. 
But then this will not be just any project. Much of the route and the 
routes of the other pipelines will be built on private lands acquired 
under the threat of eminent domain.
    For months, the public has submitted comments to FERC on these two 
projects. It would be impossible for me to describe all the concerns 
that have been raised, but I would like to offer several examples.
    Landowners whose property is crossed will be the most impacted. In 
their comments to FERC, landowners have said that they expect their 
property values will fall or that they may not be able to sell their 
properties at all. They expect to be unable to obtain insurance at 
reasonable rates and to have trouble refinancing their homes and farms.
    Many landowners are concerned about the springs and wells on their 
properties that they use for drinking water. One landowner in 
Lovingston, Virginia, told FERC that the pipeline would pass through 
four springs and one well--every water source--on his property. Larger 
communities are also concerned about water. Augusta County, Virginia, 
for example, depends on high-yield limestone wells for its municipal 
water, and the county's experts concluded that blasting and other 
pipeline construction posed a risk for these wells.
    The pipelines will cross many historic properties and archeological 
sites. These include properties like the Oak Lawn Farm in Monroe 
County, West Virginia, which the same family has farmed for over 100 
years and Monacan Native American sites along the James River in Nelson 
County, Virginia.
    Other landowners have made an investment in decades of deliberate 
management of their forests for timber which will be cleared for the 
pipeline. And businesses along the route, like the Fenton Inn in the 
Blue Ridge Mountains, are concerned about their ability to attract 
tourists during and after construction.
    Pipeline construction does not happen in a vacuum. These projects 
will have real impacts that must be understood before a route is 
approved. I have included a sample of comment letters on the Atlantic 
Coast Pipeline and the Mountain Valley Pipeline as an attachment to 
this testimony.
III. Virginia needs a regional planning process that fully involves the 
        public
    The Atlantic Coast Pipeline, the Mountain Valley Pipeline, and 
several other projects were announced in the summer and late-summer of 
2014. But of course, they were in development long before then. As 
local communities scrambled to understand the projects, where they 
would go, and what the impacts would be, a theme emerged. It became 
apparent that there was not a common plan for pipeline infrastructure 
through our region. Instead of a responsible, coordinated planning 
effort, Virginians are faced with an ad hoc but very large-scale 
construction program driven by the needs of the companies.
    Reports to FERC from the Mountain Valley Pipeline and the Atlantic 
Coast Pipeline brought this issue into focus. Each company rejected the 
other's route as too environmentally harmful for their project. 
Mountain Valley said the Atlantic Coast route would cross more public 
lands and more streams and rivers. Atlantic Coast said the Mountain 
Valley route would be longer and cross more forest lands. Which is it? 
For the public, there is little belief that these companies have 
anything other than their own self-interest at heart.
    What we need in Virginia right now is a regional plan. We need to 
know whether the demand for natural gas justifies new pipeline 
infrastructure in our state. And if a new pipeline is needed, we need 
to identify a route that is the most protective of private property, 
local communities, and the environment of the entire region.
    This approach only makes sense. We can agree, I think, that 
responsible, deliberate planning is how we should build large-scale 
infrastructure that impacts thousands of acres of private and public 
lands. We should avoid unnecessary construction by answering the 
question: Do we need a new pipeline? And if the answer is yes, we need 
to find the best and least harmful way to do it.
IV. The draft National Energy Security Corridors Act is not the 
        responsible planning tool that we need
    The designation of pipeline corridors on Federal lands is one 
possible outcome of a regional planning effort. But this cannot and 
should not be done without public involvement. Nor should there be an 
arbitrary, mandatory requirement that 10 such corridors be designated 
in the East.
    In Virginia and elsewhere in the Southeast, our public lands are 
intertwined with our communities. Shenandoah National Park is a 
critical engine for the economy of the region, and the proposed 
legislation would weaken the protections for this land. A corridor 
cannot be sited across a national park or national forest without 
immediate direct impacts to the adjacent private properties and local 
economies.
    And our public lands themselves provide important benefits. For 
example, communities like Staunton, Virginia, and others in the 
Shenandoah Valley rely on abundant clean water from the George 
Washington National Forest. In fact, many of the national forests of 
the Southeast were created specifically for watershed protection.
    The proposed act does not provide the planning tool that we need. 
It puts a finger on the scale in favor of pipeline construction over 
other uses of public lands, including our national parks. It cuts the 
voices of the communities out of the siting process, working with 
Federal, state, and local governments along with industry but 
specifically excluding any other public input. In effect, a decision to 
locate a pipeline corridor would ensure that the adjacent landowners 
and communities would bear the brunt of the project, all without ever 
having an opportunity to express their concerns.
    It is simply impossible for a pipeline company or a Federal agency 
to have detailed information of the kind provided to FERC in comments 
on the proposed Virginia pipelines. And without that input, the 
companies and the agencies cannot fully understand the consequences of 
a decision to locate a pipeline corridor.
V. Conclusion
    The deck is already stacked against the public when it comes to 
pipeline siting. Companies are heavily invested in their projects 
before public input is solicited. And FERC reviews each proposed 
project in isolation, never considering a regional plan to ensure the 
most responsible, least harmful routes are identified. We need to 
improve this process, not streamline it to the detriment of the public.
    In order to get this right in Virginia and everywhere else and 
minimize the impacts of natural gas pipelines, we need public 
involvement. Short-circuiting that process will only lead to more 
conflicts and place greater burdens on private property and local 
communities.

Attachments

The following documents were submitted with Mr. Buppert's prepared 
statement for the record. They are being retained in the Committee's 
official files:

Letter from Southern Environmental Law Center to Tom Speaks, USDA 
Forest Service regarding Atlantic Coast Pipeline Survey Comments

Letters regarding concerns about the Atlantic Coast Pipeline from:

    -- Fenton Inn, Roseland, VA

    -- Richard G. Averitt, Nellysford, VA landowner

    -- Rockfish Valley Foundation, Nellysford, VA

    -- Monacan Indian Nation, Madison Heights, VA

    -- Residents of the Shannon Farm Community, Nelson County, VA

Letters regarding concerns about the Mountain Valley Pipeline from:

    -- Monroe County Historic Landmarks Commission, Union, WV

    -- Marvin Bryant, Chatham, VA landowner

    -- Jack W. and Kathy P. Finney, Blacksburg, VA landowners

    -- Carolyn Reilly, Rocky Mount, VA landowner

                                 ______
                                 

    Mr. Lamborn. All right, and thank you. We will now begin 
our rounds of questions. I have to leave in a little bit 
because of a conflict. I will give the gavel at that point to 
Representative Cook. But first I want to ask my question.
    The concept behind National Energy Security Corridors is 
not new. In fact, Section 368 of the Energy Policy Act of 2005 
aimed to bring many Federal agencies together in order to 
establish energy corridors throughout our Nation for oil, gas, 
and hydrogen pipelines, and electricity transmission. That was 
a decade ago, but we have made little progress since then. Even 
President Obama recognized that something should be done. A 
memo he issued in June 2013 said--and I quote--``An important 
avenue to improve these processes is the designation of energy 
right-of-way corridors on Federal lands.''
    I am going to ask both Mr. Moore and Mr. McGarvey this 
question on technology and improvements in our pipeline 
infrastructure. How has technology improved in recent years to 
reduce or eliminate the possibility of natural gas leaks, and 
to reduce the footprint?
    Mr. Moore. Well, there have been a number of things. For 
one, we have, as have other pipelines, gone through an 
extensive process over the last 7 years of testing, checking 
all of our pipelines, smart-pigging our pipelines, to make sure 
that there are no issues with existing pipelines that we have.
    We have spent a significant amount of money. For Transco, 
the pipeline that I am familiar with, we smart-pigged over 90 
percent of our pipelines. In fact, all of our pipelines that 
are in high-consequence areas; and we will be doing that every 
7 years.
    As far as additional technology for pipelines, there are a 
number of things. Horizontal directional drills are in use 
widely now on many of our projects, where we can drill under 
sensitive properties without having to affect the surface at 
all. There are other direct pipe technologies that we have 
utilized to minimize the impact on streams and wetlands, and we 
do that extensively on our projects, as well.
    So, there have been a number of improvements that we 
continue to develop. We work closely, through our permitting 
process, with the Federal Energy Regulatory Commission. Of 
course, we are regulated by the Department of Transportation. 
We follow all those rules. We have taken significant steps to 
improve the safety and reliability of our natural gas 
pipelines.
    Mr. Lamborn. Thank you. Mr. McGarvey, do you have anything 
to add to that, like on materials, use of newer and better 
materials?
    Mr. McGarvey. I would just say, Mr. Chairman, that through 
our training infrastructure that I described, we can work with 
manufacturers and owners on the latest technology development, 
and train the workforce to the requirements of that new 
technology. So we are constantly retraining our workforce as 
technology advances. That is why, arguably, we have the safest, 
most productive craft workforce in the world who are putting 
these pipelines across the country.
    Mr. Lamborn. OK, thank you.
    Mr. Spisak, I am going to make a digression here for a 
second. People need to realize the National Park Service is not 
just the 50 to 60 iconic national parks, like the Grand Canyon. 
There are 400 units of the National Park System. The 
Appalachian Trail is one of those. It goes 2,000 miles, and 
1,000 miles of that is on Federal lands. And, of course, that 
is a barrier that has to be crossed by many of these pipelines.
    How would you propose to do that, if you can't go under the 
Appalachian Trail?
    Mr. Spisak. As I mentioned in my oral testimony, I am 
accompanied by Ray Sauvajot, an Associate Director with the 
Park Service. He is available to answer your question, or I 
will be glad to take your question back to answer for the 
record.
    Mr. Lamborn. Well, we will have to stick with you, because 
our invitation went to you, so we can't----
    Mr. Spisak. Understood.
    Mr. Lamborn [continuing]. Bring other people to testify, 
although they are always free to confer with you, if you would 
like that. Would that be of help to you, to just confer with 
you privately, and then you answer the question?
    Mr. Spisak. We can try that. As I understand, the 
Appalachian Trail is not one long Federal park, it is 
subdivided, and crosses various jurisdictions, including states 
and privately owned. So it is not a long, single barrier that 
you might think, if you think of it as a single trail.
    Mr. Lamborn. OK. Thank you for that answer. It does 
illuminate somewhat the situation, although I still have to say 
you are still left with 1,000 miles in total. And, admittedly, 
it is not all in one, unbroken stretch.
    Mr. Spisak. Understood.
    Mr. Lamborn. But that can present an obstacle that, until 
we pass this bill, it would take an Act of Congress to get 
around. That can take years, in addition to the permitting 
process, and the NEPA analysis, and everything else that goes 
into a pipeline.
    Mr. Spisak. Understood.
    Mr. Lamborn. So, I just think we need to pass legislation 
like this, and I hope we can work in a bipartisan manner to do 
that. I hope we can get your agency on board and work with you. 
I know Representative MacArthur is going to be working with the 
Ranking Member and myself and the agencies out there. Let's 
actually get this done--the working families of our country 
deserve not to have natural gas that costs 10 times what it 
does in other parts of the country.
    OK. At this point I will recognize the Ranking Member, and 
I will give the gavel to Representative Cook.
    Mr. Lowenthal. Thank you, Mr. Chair. And I do agree with 
you. I think that, what I am hearing today, there is a lot of 
common ground. We are all on the same page in supporting 
natural gas pipelines. The question is what is the best way to 
move forward, and I commit myself to working with you and the 
author to work on that.
    My first questions have to do with Mr. McGarvey and Mayor 
Parker. It seems like both of you support action that would 
accelerate the permitting of new pipelines. So my question to 
you is, would you be open to supporting other proposals that 
accomplish the same goals of accelerated permitting, besides 
the language in this bill?
    Mr. McGarvey. Mr. Ranking Member, we are always open to 
conversation, and anything that is going to expedite the 
permitting process. I can tell you, and you are very well 
aware, but I am directly impacted because of the people that I 
represent.
    We just went through what lots of folks in this town called 
a dramatic recession. For us, in the construction industry, it 
was a depression. There were many projects that were held up 
through the permitting process during that 5-year stretch that 
people would have kept their homes and their health care if 
they would have went forward. So we are open to anything.
    Mr. Lowenthal. Right, thank you. Also, Mayor Parker, would 
you be open to looking at other ways that accomplish the same 
goals of expedited permitting?
    Mr. Parker. Yes, sir, Mr. Ranking Member. I, much like 
everyone in my community and the people across the Nation, 
would just like the result of making sure that we had the 
energy source that will enable us to be competitive, and to 
provide the jobs for our people.
    Mr. Lowenthal. Thank you, Mayor.
    Mr. Buppert, it is my understanding that you are not 
opposed to new pipelines, or even corridors on Federal land. 
You have said that there are 51 natural gas pipelines that 
already cross the Appalachian Trail, and so it is not as if 
there are none that cross it at this moment. But you believe, 
also, that this bill is just not the best way to go forward. Is 
that correct?
    Mr. Buppert. That is right. I think corridors across 
Federal land make sense, but they have to be designed in an 
inclusive process that draws heavily on input from the public. 
What this bill does is it cuts the public out of that process.
    The siting of the corridors itself are exempt from NEPA. 
And then in the bill itself, there is what appears to be a 
mandatory approval once a pipeline application is submitted. 
Any NEPA review, if there is any, would be meaningless at that 
point.
    Mr. Lowenthal. Right.
    Mr. Buppert. There is a right way to do this. We want to 
find the routes that are the least impactful and least----
    Mr. Lowenthal. Well, I am going to offer something now, and 
let's get some comment on it. Because I think what we have is a 
proposal, and we want to see whether we can improve upon that 
proposal. So I want to highlight some of the recommendations 
from the Department of Energy's Quadrennial Energy Review, or 
its QER, which I mentioned in my opening statement. That report 
proposes establishing a permitting improvement center to ensure 
better coordination between agencies, and to speed up 
permitting. Would any of you be supportive of that? And I ask 
all the members of the panel.
    First I will start with Mr. Buppert. Would you be 
supportive of the Department of Energy's report that talks 
about creating this improvement center to speed up permits?
    Mr. Buppert. Well, I am not in a position to endorse any 
specific language. But the Department of Energy's proposal 
seems like a step in the right direction. Specifically, it is 
attempting to improve expediency without sacrificing public 
input.
    Mr. Lowenthal. Mr. Spisak, can you respond to that, also?
    Mr. Spisak. Yes. I believe the Department supports the 
interagency efforts for improving permitting processes. This 
builds off the multi-departmental rapid response team approach 
that we have been using over the last several years, which 
focuses agency resources on improving coordination and 
involving timely permitting challenges.
    Mr. Lowenthal. I want to follow up on that. Another 
recommendation was to co-locate infrastructure, environmental 
review, and permitting staff, which sounds a lot to me like the 
Section 365 oil and gas pilot permitting offices.
    Does Interior believe that that kind of strategy can be 
successful in reducing permitting times?
    Mr. Spisak. We did have a positive response associated with 
the pilot office Section 365 offices. We found that that was 
very helpful in dealing with the challenges of permitting oil 
and gas with the environmental reviews, and it would----
    Mr. Lowenthal. Then my last question would be to Mr. 
Buppert. Would you be supportive of these QER recommendations?
    Mr. Buppert. Well, like I said, those recommendations seem 
like a step in the right direction, an attempt to improve 
expediency without sacrificing public input.
    Mr. Lowenthal. So, I would just like to encourage my 
colleagues on the other side of the aisle that there may be 
something here that we can work to strengthen this kind of 
bill.
    I would like to ask unanimous consent to enter two letters 
for the record, one from the National Parks Conservation 
Association, Coalition of National Park Service Retirees, and 
Park Rangers for Our Lands, that letter in opposition to the 
bill, as presently drafted; and one from the Wilderness 
Society, Environmental Defense Fund, and NRDC, also in 
opposition, as presently drafted. We are trying to figure out 
how do we make this better and stronger. I yield back.
    Mr. Cook [presiding]. Without objection, so ordered.
    Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. First of all, thank you 
to Congressman MacArthur for the underlying bill that we are 
talking about. Gentlemen, thank you for coming and lending your 
expertise to this topic today. I hail from Pennsylvania, from 
the Marcellus area--actually, a little bit of Utica now. And 
the benefits of natural gas have just been amazing. We have 
seen the cost for all, especially for the people living 
paycheck to paycheck, the ones who are really struggling in 
life, when they have access to natural gas, there are lower 
heating costs, lower costs to be able to cool your homes, to 
cook, and an increase in manufacturing.
    We have seen the greenhouse gas levels go down. Many of my 
counties were in double-digit unemployment. Today they are 
under 6 percent. Two-hundred-and-fifty thousand jobs, 
estimated, have been created in Pennsylvania as a result of the 
Marcellus. In the past 7 years there has been $2 billion of 
taxes paid to the Pennsylvania coffers, the treasury, from the 
natural gas industry. And, quite frankly, probably more 
important than anything else, from a Federal perspective, the 
energy and national security that it has helped support.
    Mayor, thank you for being here.
    Mr. Parker. Yes, sir.
    Mr. Thompson. I know you are from a small town. I represent 
24 percent of the land mass of Pennsylvania, which is all small 
towns. So, I was curious to see from your perspective, what 
opportunities are possible, when natural gas is a part of the 
infrastructure package that you can offer to attract or even 
create home-grown manufacturing?
    Mr. Parker. Congressman, that is a great question. The 
truth of it is probably the reverse. What I mean by that is 
this: without it, there are no opportunities. That is just the 
pure truth of it. Without natural gas, and the infrastructure 
that will bring it, we absolutely, in eastern North Carolina 
and across this Nation where we don't have it, don't have 
opportunity. We can't compete.
    I visualize it much as the debate that must have went on in 
these halls when the railroad went across the country. Most of 
the towns in our Nation--not just in my county--are built 
because they were either on the river, or the railroad went 
through. Every town in my county, other than Smithfield, that 
was on the river, was built because of the train. Those same 
debates that we hear now about where it went were held then. 
But the truth of it is, it made our economy grow, our Nation to 
be connected, and our people to have work.
    So I say to you that without what is required--and how we 
get there is up to you. I am sure that you all are going to 
work it out in the right manner. But the truth of it, when you 
have reached my age of 67, the most precious commodity that we 
have is time. A year ago, I happened to be at the local gas 
station fueling up early one morning. I looked across at 
another young man that was going off to work. He bought $2 
worth of gas, half a gallon. That is all he could afford to get 
him to work so he could come back home.
    There are people in this Nation, in my community, my 
county, my state, who need the help to create jobs. I own a 
barbecue restaurant, and I can tell you this year as the price 
of gas came down, my sales went up because people liked my 
product. But they can't buy it if they don't have money. And it 
made a difference. So your question is right on. There are no 
opportunities without it. Thank you, sir.
    Mr. Thompson. Thank you, Mayor.
    Mr. Moore, with your company, you have been able to come to 
the table with the National Park Service and the Governor, and 
work through issues. Could you talk about that briefly--about, 
if this legislation is successful, how you would have the 
authority to come to the table as different stakeholders and 
work through the issues without the bureaucracy and the 
challenge of having to get that Act of Congress for each 
project?
    Mr. Moore. Yes, sir. Thank you. That is correct. We work 
with the National Park Service routinely, and we have worked 
very well with them. They seem to be responsive to the same 
issues that we are concerned about. We want to build in places 
where it is constructable. We want to construct our pipeline in 
areas where it is environmentally responsible, the same thing 
the National Park Service is interested in. So we work with 
them closely on our projects.
    The issue we have encountered, the primary issue, has been 
the delay when it requires an Act of Congress. In the case of 
the Rockaway Project in New York that I mentioned in my 
testimony, we spent 3 extra years to go through that process. I 
won't attribute all of that to the Act of Congress; probably 2 
years of it to that. And we had already been in extensive 
discussions with the National Park Service on that issue, and 
we thought we had a solution that was workable. We ultimately 
got the Act of Congress, but again, it was an extreme delay for 
us and for our customer.
    Mr. Thompson. Thank you.
    Thank you, Chairman.
    Mr. Cook. I thought I saw Dr. Ruiz, I didn't see him. Dr. 
Benishek. We've got too many doctors in the place here.
    Dr. Benishek. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here. Thank you, gentlemen, for being here 
this morning.
    Mr. Mayor, I really appreciate your comments, and the 
heartfelt feelings behind them, too.
    I would just like to know a little bit more about the 
process. What exactly is the process that you have to go 
through to approve a national gas pipeline across National Park 
Service lands? Mr. Moore, can you answer that question?
    Mr. Moore. Our process for a typical project is, once we 
have reached agreement with our customer, we have in mind what 
the project will look like, we are regulated by the Federal 
Energy Regulatory Commission. We go through a pre-filing 
process, where we are required to engage all stakeholders, 
mainly discussing environmental impacts, discussing the routing 
of the pipeline and what alternatives there are to the routing 
of the pipeline.
    In the case of the Rockaway Project, as we were going 
through that process, one of the things we knew we had to have 
was going to be access to national park property. And we 
obviously engaged the National Park Service during that 
process, and came up with a solution we thought would work for 
both sides.
    But, before we could file for our FERC certificate, we had 
to get the Act of Congress, which was about a 2-year process. 
Once we got the Act of Congress, we filed our FERC certificate, 
and the Federal Energy Regulatory Commission reviews 
everything. They make the determination, ultimately, as to 
whether we can or can't build the project. So, in this case, 
they gave us a certificate to proceed. We constructed the 
project and placed it in service last week.
    Dr. Benishek. But the whole process takes just years and 
years.
    Mr. Moore. The normal process for a project, the time frame 
is 3 to 4 years. And, again, in this one specific example I 
cited, it was 6.
    Dr. Benishek. Yes, so that adds quite a bit of time to the 
process.
    Mr. Moore. Yes, sir, and maybe even more important was the 
uncertainty as to whether we would actually get----
    Dr. Benishek. Right.
    Mr. Moore [continuing]. Approval by Congress to proceed.
    Dr. Benishek. Right, right. Does this happen all the time, 
all across the country? Is this happening more and more? How 
frequently is this becoming an issue now?
    Mr. Moore. I am not an expert on how many times it has 
happened. In the case of my company, which is Transcontinental 
Gas Pipeline, a subsidiary of the Williams Companies, we have 
three locations where we cross park property. We have a 
crossing of the Appalachian Trail----
    Dr. Benishek. Mr. McGarvey, do you have any information on 
that, how many times this becomes an issue across the country 
that affects your workers?
    Mr. McGarvey. I don't have data, but I can tell you that it 
is not just a pipeline, it is any construction project. The 
amount of time and the outlay of capital, like Mr. Moore said, 
with the uncertainty for people that are investing that capital 
really stagnates and stymies development of not just natural 
gas pipelines, but all kinds of construction projects, because 
of the permitting process.
    Dr. Benishek. I just want to relate to you the fact, and 
Mr. Parker mentioned it, too, when the natural gas pipeline 
came through my community, when I was a kid, my family had a 
hotel and bar. The construction crew that came through there 
and spent the summer in the area, that was a huge boon to our 
entire community, from the hotel rooms and all that. The 
increased opportunity we have here in this country to help 
small towns across America by having these pipelines, not only 
by the production of the gas, but having the economic boom of 
the construction, that is just huge for America. And I hope we 
can solve the differences that we have and streamline this 
process, so that the resource that is so valuable to Americans 
is quickly developed in less than 6 years at a time.
    So I yield back the remainder of my time. Thank you.
    Mr. Cook. Thank you. The Chair recognizes Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Spisak, do you view this legislation as requiring the 
Secretary of the Interior to grant right-of-ways on all public 
lands?
    Mr. Spisak. We looked at that, and it was unclear entirely 
whether that was the case or not. I think it talks of not doing 
the NEPA analysis on major Federal actions, so it is not 
entirely clear, and it could be construed that way, yes.
    Mr. Graves. But while it doesn't require a NEPA analysis to 
designate the corridors, the actual pipeline project, as I 
would assume, would actually require a NEPA analysis. The 
actual construction project would require NEPA.
    Mr. Spisak. That is how we interpret it, although the NEPA 
analysis associated with that would not benefit from the 
higher-level NEPA that would go through the corridor 
designation, and it might take longer to do some of that.
    Mr. Graves. OK. So, perhaps there could be discussion about 
where NEPA appropriately fits in this, whether it is in the 
front end, or during the construction process. Is that----
    Mr. Spisak. Yes.
    Mr. Graves. OK. But, putting that aside, I am struggling 
with your comment in your testimony where you twice 
definitively say that the National Park Service land should be 
exempt from any type of right-of-way designation. Can you help 
me understand that?
    Mr. Spisak. I can speak to the BLM issues. And I think it 
would be better served for the Park Service to answer that.
    Mr. Graves. You are not suggesting that you didn't write 
this testimony, are you?
    Mr. Spisak. I am sorry, what?
    Mr. Graves. I said you are not suggesting that you didn't 
write this testimony, are you?
    Mr. Spisak. I----
    Mr. Graves. Don't answer that.
    [Laughter.]
    Mr. Graves. I am just struggling here, and here is why. I 
know you don't work for the EPA, but, as I am sure you are 
aware, the EPA is using various authorities now to 
significantly influence our national energy portfolio, 
primarily some of the clean air regulations affecting the use 
of coal. And in doing so, coal is now the largest feed stock or 
fuel source for electricity generation in the United States. 
However, new power plants that are coming online, the largest 
source by far is natural gas, as a generation source.
    So, if you are going to come in one hand and you are going 
to squeeze a certain stock or fuel source, you have to ensure 
that you are carrying out efforts to facilitate the use of 
these other fuels to prevent us from having electricity 
generation issues in the United States. And it seems like the 
Administration is totally missing that. They are squeezing 
coal, on the one hand, and they are not doing anything to 
facilitate the transportation of natural gas on the other, 
which if I remember right, 90 percent of all new electricity 
generation facilities are based upon natural gas. And it seems 
that there is an extraordinary disconnect there.
    Mr. Spisak. Well, we do say in the testimony, and I have 
said in my oral statement, that we support the goals of what 
you are trying to do. And I think we can work through that, as 
we talk through----
    Mr. Graves. Do you see the bigger picture here, though----
    Mr. Spisak. I understand exactly what you're saying, sure--
--
    Mr. Graves [continuing]. That we are concerned about? I 
think that is a big deal.
    Now, two other things. One, I think in every hearing, Mr. 
Chairman, I am going to mention south Louisiana. You look at 
the title of this bill, and it pertains to national energy 
corridors. We have a road in south Louisiana known as LA-1. LA-
1 facilitates, depending on how you do the math, and I usually 
estimate upward, it handles anywhere from one-quarter to one-
third of all the oil and gas consumed in this Nation. It 
services approximately 75 percent of all the offshore fields in 
the Gulf of Mexico.
    You state in your testimony that under the Mineral Leasing 
Act, one-half of the revenues from production of energy 
resources on Federal lands go toward those states. Are you 
familiar with the offshore revenue sharing?
    Mr. Spisak. I am aware of it, but I am more familiar with 
the onshore, where it is roughly one-half.
    Mr. Graves. And I believe----
    Mr. Spisak. Offshore is a little bit different.
    Mr. Graves. So it is 50 percent goes to the states with no 
strings attached, whatsoever?
    Mr. Spisak. Onshore.
    Mr. Graves. For onshore. An additional 40 percent goes in 
the reclamation fund, used for water projects in 17 western 
states. For offshore, this year, as I recall, I believe we 
received .4 percent. Not 50 percent, not effectively 90 
percent, but .4 percent.
    Here you have a roadway that is by far the most important 
energy road in the Nation, and to see the fact that this road 
is very vulnerable, and that we are not reinvesting dollars in 
it to ensure the resiliency of our national energy 
infrastructure, is problematic. And the disparity between 
royalty treatments, or energy revenue treatments for onshore 
and offshore simply can't be defended. I would urge you to take 
that back to your agency, and the next time you write 
testimony, perhaps you could make some reference there. Thank 
you.
    Mr. Spisak. Thank you.
    Mr. Cook. Thank you, Mr. Graves. The Chair would like to 
recognize the new member to the committee. And if he is going 
to last these long committees, be careful, you will end up as 
the Chair.
    [Laughter.]
    Mr. Cook. His name is Mr. Hice, and it is my pleasure to 
introduce you. You are recognized.
    Dr. Hice. Thank you, Mr. Chairman. It is a great honor to 
be here, and I thank you very much. And thank you, each of you, 
for being here with us today.
    Mr. McGarvey, Mr. Moore, I would like to direct some 
questions and some thoughts specifically to you, and somewhat 
piggy-back on what Mr. Graves was talking about.
    Recently, the governor of Texas signed a law making 
fracking bans illegal. I believe this was done because, 
overwhelmingly, the evidence points to the fact that hydraulic 
fracturing is being done safely. But then you have other 
states, such as New York, relying on natural gas where they 
have banned the practice of hydraulic fracturing.
    Both of you, in your testimonies, pointed out that about 63 
percent of New England's 11,000 megawatts of proposed new 
generation rely upon natural gas. So we know the production is 
not going to come there from New York. So where is New England 
going to get natural gas from?
    Mr. Moore. Our company has proposed a pipeline from 
northern Pennsylvania to Wright, New York, which doesn't get 
all the way to New England, but it does interconnect with the 
Tennessee Gas Pipeline in Iroquois, so that gas can make it to 
New England markets to some degree.
    So, the projects we have been developing have been out of 
northern Pennsylvania. That has been the supply source for the 
projects we are developing to move gas toward the New England 
region. I know there are other pipeline proposals by other 
companies, as well, to build infrastructure further north into 
New England. But it is certainly a constraint, and there are a 
number of pipelines trying to address that today.
    Dr. Hice. All right. So you have a number of different 
companies trying to get the pipelines to various parts of New 
England. We are talking lots of pipeline, a lot of miles, a lot 
involved in all of this to meet the demand, obviously, of that 
population. Are we going to need an Act of Congress every time 
one of these pipelines goes across Federal land?
    Mr. Moore. I guess today we do. In our Constitution Project 
we didn't cross Federal land, so we didn't have to encounter 
that. I am not aware of whether the other projects that are 
being proposed will encounter that or not. We have a project 
under development now that will potentially cross the 
Appalachian Trail. We were looking at a number of alternatives, 
so it is not clear.
    Dr. Hice. Right. The Appalachian Trail goes all the way 
from Georgia to Maine. So, again, are we going to need an Act 
of Congress every time we go across Federal land?
    Mr. Moore. Today we do.
    Dr. Hice. All right. We will. Can you explain how delays in 
the process of getting permits impacts the labor force of a 
project?
    Mr. McGarvey. The local labor force looks forward to these 
opportunities to work in the region where they are domiciled. 
And when there are proposed projects, and when they are held up 
by the permitting process, they are forced to leave the local 
area and pursue the work opportunities to apply their craft 
where they can, whether it is in another state or another 
region of the country. Sometimes there just isn't work in those 
other places to move to, and the impact on the labor force is 
that it depresses enthusiasm for being in the construction 
industry, because of the intermittent nature of the work. And 
it is a different situation when it is the economy, and the 
economy's hand that is dealing that intermittent nature of the 
work, as it is to bureaucrats who are deciding on a process of 
permitting to actually get a construction project built.
    So, it hurts us on the recruitment side sometimes. It hurts 
the image of construction as an intermittent industry. And, 
most importantly for the people I represent, it hurts their 
economic standard for their families, because there is private 
capital, ready to go on a piece of infrastructure that makes 
sense and is needed, and they can't apply their craft because 
it is going through this long, drawn-out permitting process. So 
it depresses the industry.
    Dr. Hice. So there is a significant problem that is created 
by the delayed permitting process from local economies and all 
these that you have just described. It is problematic.
    Mr. McGarvey. Congressman, it is probably the single 
biggest problem in the construction industry that we face, this 
menagerie of permitting processes for all sectors in all 
industries across the United States.
    Dr. Hice. Thank you.
    Mr. Chairman, I yield. Thank you, sir.
    Mr. Cook. Thank you very much. And our last question will 
be from the individual who started all this.
    A great hearing, Mr. MacArthur. You are recognized.
    Mr. MacArthur. Thank you so much, Mr. Chairman.
    Mr. Mayor, I want to thank you. I was a businessman and a 
local mayor, as well. I am new here. And I appreciate your 
reminding us that the things we do have a real impact on real 
people. And what we do can affect job creation and prosperity 
of people, families, and communities. I think it is important 
that we remember that, among other things.
    Mr. Spisak, I had a question for you. The kinds of 
corridors that I am proposing, do they currently exist, both 
identified and designated in the 11 contiguous western states?
    Mr. Spisak. Yes, as part of the Energy Policy Act we 
designated those corridors on Federal lands.
    Mr. MacArthur. OK, which is precisely what I am proposing 
here, that we just do it in the eastern United States, as we 
have done in the western United States.
    Are you aware of any reason why eastern states would pay up 
to 10 times what western states pay for natural gas, other than 
the lack of efficient distribution from West to East?
    Mr. Spisak. I would know of no other reason.
    Mr. MacArthur. That makes two of us. In fact, I think it 
probably makes 40 or 50 of us in this room.
    So, the western states have the exact sort of corridors 
that I am proposing already, and the world hasn't come to an 
end. And eastern states are paying 10 times more for natural 
gas, and it affects real people in real communities. It affects 
real workers, 3 million in these unions.
    And I understand change can be difficult for people, but 
this is simple, common-sense change. We are not reinventing the 
wheel here. We are simply asking, in the eastern United States, 
for what already happens in the western United States.
    And, last, if I might turn to President McGarvey, you 
talked a little about your 14 building trade unions and the 3 
million members you represent. Could you elaborate? Because you 
talked about the job creation in building the pipelines, but 
you started to talk about the jobs that flowed downstream, once 
those pipelines are in place. I just wanted to ask you maybe 
two things.
    One, is there anything more important for your unions than 
seeing your members at work?
    Mr. McGarvey. No, that is the sole purpose for which we 
exist. Once you get past collective bargaining in the 
construction industry, in the building trades, is to provide 
the work opportunities and the positive economic trajectory for 
the members that we represent.
    And when it comes to the energy sector, and the untapped 
potential in this country for our unions, about 50 percent of 
the work that those 3 million folks do is in the energy sector. 
I can tell you that within 40 miles of this building, there is 
approximately $6 billion worth of construction work going on, 
from a Cove Point project that Dominion is doing on gas 
transfer terminal to two gas-fired power plants--$6 billion 
worth of construction within 40 miles of this building. It is 
just phenomenal. Ten years ago, nobody would have believed it, 
thought it, or dreamt it.
    Well, it takes real people to build those facilities. And, 
through our training programs, we are able to help communities 
of color, women, and veterans, through a pre-apprenticeship and 
apprenticeship program, learn the skill sets while they are 
working on private capital-invested projects that then move 
those folks and keep those folks in the middle class, not for 
one, but for two generations, according to our studies, because 
of the skill sets they learn.
    So, the potential is enormous, we just need to get at it. 
The quicker we can get things into the ground, the more people 
that we can help, the lowering of the income inequity in the 
country, and making sure that folks have the opportunities that 
they need.
    Mr. MacArthur. I appreciate that.
    And, Mr. Chairman, just last, I recognize anything dealing 
with the environment is highly charged, right out of the gate. 
I know that. I represent probably the most environmentally 
sensitive area in New Jersey. It includes the Pinelands, it 
includes the whole of the shore area. So I understand that 
emotions can run hot.
    I just want to repeat. This bill accomplishes what we are 
already doing in the western United States, and I think it does 
it to great effect for people that need jobs--women, veterans, 
people that are impoverished today. It helps communities, it 
helps energy independence. And I appreciate each of your 
testimonies. I know you have different perspectives, but I 
appreciate you sharing them with us. I yield back.
    Mr. Cook. Thank you. The Chair recognizes Mr. Mooney.
    Mr. Mooney. I have no questions, Mr. Chairman.
    Mr. Cook. Thank you very much. I want to thank the 
witnesses for their valuable testimony, and the Members for 
their questions.
    Members of the committee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing. Under Committee Rule 4(h), the hearing record will be 
held open for 10 business days for these responses.
    And, once again, I want to thank the witnesses. I know many 
of you have come a long way. It is good to hear some folks from 
North Carolina. I felt like I was back in Camp Lejeune again. 
And I actually could understand what you were saying.
    So once again, thank you for your patience.
    If there is no further business, without objection, this 
committee stands adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                                   May 20, 2015

Hon. Doug Lamborn, Chairman,
House Subcommittee on Energy and Mineral Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
1329 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Lamborn and Ranking Member Lowenthal:

    I write to express my support for H.R. 2295, the ``National Energy 
Security Corridors Act.'' Since 2008, the U.S. has become the world's 
number 1 producer of oil and gas. Advances in hydraulic fracturing 
techniques have unlocked vast supplies of previously unrecoverable gas 
in shale formations across the nation. Unfortunately, our nation's 
energy transmission infrastructures have not kept pace with changes in 
the volumes and geography of oil and gas production. This is 
particularly true of the infrastructure for transporting natural gas.
    Over the last decade, there has been a growing awareness of the gap 
between the times typically needed to permit new production of sources 
of energy and the much longer times needed for infrastructure. This 
discrepancy in permitting time frames makes it more challenging to 
plan, site, permit, finance, and construct energy infrastructure 
projects. H.R. 2295 would streamline the process by allowing the 
Department of the Interior to review and approve natural gas pipeline 
rights of way on lands administered by the National Park Service 
without first seeking project-specific authorization from Congress, as 
is now required by law.
    My home state of Louisiana is third among all states in natural gas 
production. Louisiana residents pay the lowest average cost for 
electricity of any state in the country. This is due in part not only 
to our abundant natural gas supply, but also our natural gas pipeline 
network. My constituents experience the very real benefits of natural 
gas abundance every day. By streamlining the natural gas pipeline 
siting and permitting process, we can connect our increasingly abundant 
supply with constantly increasing demand and ensure that all Americans 
can experience these benefits as well.

            Sincerely,

                                        Cedric L. Richmond,

                                                Member of Congress.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

In Support of H.R. 2295

    --  America's Natural Gas Alliance, May 19, 2015 Letter

    --  Interstate Natural Gas Association of America, May 19, 
2015 Letter
In Opposition of H.R. 2295

    --  Appalachian Trail Conservancy, May 29, 2015 Statement

    --  National Parks Conservation Association, Coalition of 
National Park Service Retirees, and Park Rangers for Our Lands, 
May 19, 2015 Letter

    --  The Wilderness Society, Environmental Defense Fund, and 
Natural Resources Defense Council, May 19, 2015 Letter

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
